<html>
<title> - THE ROAD AHEAD: U.S. INTERESTS, VALUES, AND THE AMERICAN PEOPLE</title>
<body><pre>[Senate Hearing 115-770]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-770

                  THE ROAD AHEAD: U.S. INTERESTS, VALUES, 
                          AND THE AMERICAN PEOPLE

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            MARCH 30, 2017

                               __________



       Printed for the use of the Committee on Foreign Relations

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                   Available via the World Wide Web:
                         http://www.govinfo.gov

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-943 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------





                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD YOUNG, Indiana                  CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey


                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1
Cardin, Hon. Benjamin L., U.S. Senator From Maryland.............     3
Albright, Hon. Madeleine K., Former U.S. Secretary of State,.....     5
    Prepared statement...........................................     7
Hadley, Hon. Stephen J., Former U.S. National Security Advisor, 
  Washington, DC.................................................    12
    Prepared statement...........................................     7

              Additional Material Submitted for the Record

The Committee Received No Response From Hon. Madeleine K. 
  Albright for the Following Questions Submitted By Senator Todd 
  Young..........................................................    39
The Committee Received No Response From Hon. Stephen J. Hadley 
  for the Following Questions Submitted by Senator Todd Young....    39
The Committee Received No Response From Hon. Madeleine K. 
  Albright for the Following Questions Submitted By Senator Cory 
  A. Booker......................................................    39
The Committee Received No Response From Hon. Stephen J. Hadley 
  for the Following Questions Submitted by Senator Cory A. Booker    40
Congress's Duty in the War with ISIS [New York Times, March 25, 
  2017]..........................................................    42


                             (iii)        

 
    THE ROAD AHEAD: U.S. INTERESTS, VALUES, AND THE AMERICAN PEOPLE

                              ----------                              


                        THURSDAY, MARCH 30, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:10 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Johnson, Flake, 
Gardner, Young, Cardin, Menendez, Shaheen, Coons, Udall, 
Murphy, Kaine, Markey, and Booker.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations Committee will come to 
order.
    I thank everyone for being here. We have two outstanding 
witnesses today.
    And just as a housekeeping thing, I guess we have got 
another vote. So what we might try to do is get through opening 
comments now. We might run, go vote, and then come back. Again, 
we apologize especially having such distinguished people with 
us today.
    We spent a lot of time in this committee looking at very 
specific foreign policy issues, and whether it is the 
challenges we face in the Mosul campaign in Iraq appears to 
wind down or down-in-the-weeds details of Venezuelan politics, 
we rightly focus much of our attention on the tactical and 
operational. There is not much time left for the truly 
strategic. I mean, let us face it. That is the way things have 
been both at the White House and here. That is why as chairman 
we have made it a priority to concentrate more of our time and 
energy on exploring the bigger questions facing our country and 
the world.
    Members will remember that last year we were fortunate to 
hear testimony along those more strategic lines from former 
Secretary of State, James Baker, and former National Security 
Advisor, Tom Donelan, both of whom I know are friends of yours.
    I should also make clear that we stand in a moment of 
exceptional opportunity to take the strategic thinking we are 
exploring at hearings like this and work together with a new 
administration and turn it into reality. We have a chance right 
now to join forces in a bipartisan way with the executive 
branch, which regardless of what side of the aisle you may be 
on, there is no question they are more accessible and welcoming 
of input than any administration I have dealt with since 
joining the committee.
    As a matter of fact, since I am getting a reaction from 
Hadley, I will just say that we had lunch with Tillerson last 
week. We are going to be breaking out in small groups to look 
at each of their 12 strategic regions. We are going to be doing 
the same thing with McMaster.
    So as this administration moves ahead, they really are 
looking on a bipartisan basis for input. So it is even more 
important that you all are here today. And we thank you.
    Members know we have already had, as I just mentioned, a 
productive working meeting with Secretary of State Tillerson 
yesterday. Ambassador Haley was in. I thought we had a great 
meeting with her. What we will learn today will help inform 
those future interactions with the executive branch, and if we 
seize this moment, it will help us craft solid foreign policies 
in a cooperative manner.
    In my view, we face four critical areas of concern as we 
and the new administration move ahead.
    First of all, over the past several years, we have seen a 
crisis of credibility emerge when it comes to the world's view 
of the United States. Put simply, people no longer believe that 
we can be counted on to do what we say we will do.
    Second, we have a serious problem with prioritization. 
Since the end of the Cold War, the number of things being 
called national security priorities has expanded to an enormous 
laundry list. We spend too much time frankly on pet issues of 
specific interest groups, individual Members of Congress, and 
administration bureaucrats. And as the old saying goes, if 
everything is a priority, then nothing is a priority. And I 
hope you will help us with that today.
    Third, our foreign policy has clearly and obviously become 
disconnected from the beliefs and desires of the American 
people. I mean, let us face it. One of the outcomes of this 
most recent election was about that. I mean, we have not done a 
good job of making sure people here in our country are 
connected with our foreign policy. We must have a national 
conversation about what constitutes core U.S. interests and 
policymakers who have to do a better job of squaring those 
interests and the policies we pursue to achieve them with the 
will of the folks that sent us here in the first place.
    And then finally, we have to recognize that no matter what 
we talk about in this committee day to day, no matter what we 
discuss here this morning, the top threat, the top national 
security threat is us. It is us. And that is our inability to 
deal with our long-term fiscal situation. Everybody knows it. 
Secretary Albright has mentioned this in times past. I know 
Secretary Hadley has.
    The other threats we face, North Korea, Russia, Iran, and 
all the rest, are significant, but so is the fact that we are 
staring down the barrel of the kind of fiscal situation that 
has led to the end of kingdoms, empires, and republics 
throughout history. And it is something that we have to grapple 
with.
    I want to extend my great gratitude to the witnesses. I do 
not want to prolong my opening comments any longer. We look 
forward to your testimony, vigorous questioning. It is an honor 
to have you.
    And with that, Senator Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, Mr. Chairman, thank you very much for 
convening this hearing and getting us two very, very 
distinguished witnesses. Their service to our country is 
legendary, and we thank you very much for everything you have 
done to strengthen America in your public service throughout 
your career and continuing your inspiration to foreign policy 
development in our country. So thank you both. It is a pleasure 
to have you here as we think about U.S. national security 
strategies in the years ahead.
    When the Cold War ended some 30 years ago, we were told 
that we were at the end of history and that democracy, open 
borders, free trade, liberal economics, and pluralistic 
societies had emerged triumphant.
    Yet, with the rise of populism, including here in the 
United States, with the renewed ideological challenges that we 
face from Russia, China, and the Middle East and with still 
ongoing struggles with ISIS in Syria and Iraq, for the balance 
of the 21st century we are very much in history once again.
    Renewed and vigorous U.S. leadership of the sort that 
helped us chart the 20th century, the sort of leadership that 
the two of you have provided to multiple administrations have 
never been more necessary. Yet, the new administration seems to 
have a very different idea about how to exercise U.S. power in 
the world, ideas that in my view risk undermining key tools and 
mechanisms that enable U.S. leadership.
    I am a firm believer in the enduring strength of the United 
States. Yet, I am concerned that our position as the leader of 
the free world is at risk. The ideas of democracy as a model 
and of development and diplomacy as tools for engagement are 
being significantly challenged. The European Project, which has 
been the source of security and prosperity for the past 70 
years, is now being undermined with U.S. support for and in 
deference to far right wing efforts to undo European security 
and democratic architecture. The new administration appears to 
have elevated Russia and China to privileged positions ahead of 
our allies in a new game of great power politics.
    Russia has attacked our democracy, illegally annexed 
Crimea, and invaded eastern Ukraine. Putin's Russia now 
considers itself in an existential struggle with the West, and 
all Russia's domestic problems, a weakening ruble, collapsing 
energy prices, labor unrest, are framed by the Kremlin as 
evidence of foreign hostility rather than the consequences of 
their own corruption and expansionist ambitions. In my view, 
Russia is a revisionist power that will cause further trouble 
across Europe and in the international order more generally. 
Russia sought to undermine and interfere in our elections, and 
how we respond to Putin's broader strategic game is one of the 
key challenges of our time. Therefore, your views and advice on 
Russia is something that I look forward to our discussion at 
this hearing.
    Likewise, we welcome your perspectives on the rise of 
China, which has created anxiety through the Asia-Pacific 
region, raising with it questions as to how best maintain the 
institutional order in East Asia that has so benefited the 
region and the globe for the past seven decades.
    After World War II, the United States led the world towards 
peace, prosperity, and freedom. It did not come easy. We faced 
down threats from the Soviets, Saddam Hussein, Milosevic, and 
others, and we have done so effectively in the past. We need to 
renew and revitalize American power and leadership to advance 
U.S. leadership interests in the world, like continuing to take 
back ISIS-claimed territory and fighting the warped ideology of 
Al Qaeda. This challenge, this question about our commitment to 
basic principles, values, and norms of democracy is fundamental 
to our role in the world.
    I am also interested in your views on the roles of good 
governance, transparency, democracy, human rights, and the 
development of a U.S. foreign policy toolkit. It is never more 
important than it is today. For too long, U.S. foreign policy 
has treated governance issues, anti-corruption, transparency, 
democracy, and civil society capacity building, as well as 
basic human rights and development, as secondary issues. Today 
we need to make sure that is not the case.
    Yet, this administration seems to take as a given that the 
United States is not exceptional, rather than our form of 
government is no different than that of Russia or China, 
pursuing power narrowly, conducting foreign policy in a 
transitional way that are not our values. That is not what we 
are as Americans. The President and his inner circle may not 
talk about American values, but I will and I know both of you 
will. In the face of this assault of our values, we cannot be 
silent. We know that America derives its strength from its 
values, and we can never retreat from that core concept.
    Lastly, I am interested in your perspective on how the 
Trump administration's proposal to slash about 36 percent from 
the State Department and USAID budgets will affect our ability 
to safeguard our Nation's interests. The deep cuts, accompanied 
by efforts to dismantle key U.S. foreign policy tools and 
institutions, comes at a time when we face massive humanitarian 
crises with 65 million people displaced or on the move and 20 
million facing starvation in the coming weeks.
    I recognize that Congress ultimately determines our 
spending priorities. I recognize that. But I am deeply 
concerned that the proposed cuts of the State Department and 
foreign assistance budgets suggest that the Trump 
administration could fatally undermine our ability to renew and 
revive our leadership at just a time when the leadership is 
increasingly essential.
    So for all those reasons, I look forward to this discussion 
today as we talk about the future of U.S. foreign policy.
    The Chairman. Thank you.
    Thank you again both for being here.
    I have never seen a President's budget ever become law--
ever. So we know we are all going to shape that, and I know we 
all have an opportunity to shape the direction of the Trump 
foreign policy in ways that, candidly, we have not been able to 
shape other administrations because of just where they are in 
their thinking.
    So your being here today is most helpful. We are glad to 
have former Secretary of State Madeleine Albright, known to all 
of us, respected, and liked by all of us, and former National 
Security Advisor Stephen Hadley, known by all of us, liked by 
all of us, admired by all of us. Thank you for being here. If 
you could summarize your comments in about 5 minutes, any 
written documents you have will be entered into the record, 
without objection. And with that, I think the way your protocol 
is when you all do many joint assessments is Secretary Albright 
goes first. So if you would, please begin.

STATEMENT OF HON. MADELEINE K. ALBRIGHT, FORMER U.S. SECRETARY 
                    OF STATE, WASHINGTON, DC

    Secretary Albright. Thank you very much, Chairman Corker 
and Senator Cardin and distinguished members of the committee. 
And thank you for the opportunity to be here today. And in 
listening to the opening statements, we certainly have plenty 
to talk about and the fact that you see the role of this 
committee in the broad way that you do I think is very 
encouraging.
    I am pleased to return to these familiar surroundings and 
to see so many good friends here. And I am also delighted to be 
able to appear alongside Steve Hadley who truly is one of the 
smartest and most principled people that I know.
    We have worked together on a number of foreign policy 
initiatives in the years since we left office and most recently 
in co-chairing the Atlantic Council's Middle East Strategy Task 
Force. And we have done this not only because we happen to like 
each other, but also because we both fervently believe in the 
importance of bipartisanship in foreign policy. And this was a 
lesson that I learned from one of my first bosses, Senator Ed 
Muskie, when I worked as his chief legislative assistant.
    I know that the members of the Senate Foreign Relations 
Committee share our belief in working across party lines 
because this committee has always been bipartisan in its 
approach. And proof of that can be found in the relationship 
that I was able to build with Chairman Helms. He and I truly 
were the odd couple. The ``New York Times'' called our 
friendship, quote, perfectly natural and utterly astonishing. 
But while our politics could not have been more different, we 
did put those differences aside in order to build common ground 
on issues such as NATO expansion, banning chemical weapons, and 
reorganizing the State Department.
    My experience with Chairman Helms gave me an even deeper 
respect for the legislative branch of the government and the 
responsibilities assigned to it under Article 1 of the 
Constitution. This is Article 1 time. I know the members of 
this committee take those responsibilities very seriously, 
which is why Steve and I really are pleased to be able to be 
here today and to join you in exploring the road ahead for U.S. 
interests and U.S. values and the American people.
    The hearing does come at a time of deep political divisions 
at home and heightened instability abroad when basic questions 
are being asked about how and why America engages in the world. 
As members of different political parties, Steve and I disagree 
on many things, but we are in vigorous agreement on how we see 
America's role in the world. We both believe it is profoundly 
in America's interest to be engaged globally because our 
security and prosperity at home are linked to economic and 
political health abroad. This mindset is what led our country 
to construct the system of international institutions and 
security alliances after World War II, and it is why Presidents 
of both parties have worked to promote peace, democracy, and 
economic opportunity around the world.
    The system that America built has not been perfect, but it 
has coincided with a period of security and prosperity 
unmatched in human history. And while many nations have 
benefited from the investments America has made in global 
security and prosperity, none have benefited more than the 
United States.
    So we recognize that today the system is under stress in 
different ways that you all have mentioned, China, Iran, North 
Korea, resurgent Russia, and institutions of global governance 
are showing their age and coming under tremendous stress as we 
deal with unprecedented humanitarian challenges, including the 
prospect of four famines in sub-Saharan Africa and the Middle 
East. And meanwhile, the value of our global engagement is also 
under question at home, and many Americans feel that their 
lives have been threatened rather than enhanced by it.
    So I do think this popular dissatisfaction with 
international trade and technological change and the 
facelessness of globalization needs to be understood and 
acknowledged, but so do the consequences of disengagement. For 
while it is comforting to believe that we can wall ourselves 
off from the ailments of the world, history teaches us that 
whenever problems abroad are allowed to fester and grow, sooner 
or later they do come home to America.
    Isolationism and retreat do not work. We know that because 
we have tried it before.
    Now, most of you know that I was not born in the United 
States. Instead, I entered the world in Czechoslovakia only a 
year before the Munich agreement sacrificed my country's 
sovereignty in order to appease Hitler. In my early years, I 
saw what happened when America was absent, as it was in Munich, 
and what happened when America was present, as it was during 
World War II. The lesson I drew is that terrible things happen 
when America is not engaged, and that is a lesson I have shared 
with this committee on countless occasions whether testifying 
as a professor of international relations, Ambassador to the 
U.N., or Secretary of State.
    America is not an ordinary country that can just put our 
narrow interests first and forget about the rest of the world. 
We are the indispensable nation, and it would be a terrible 
mistake to pretend otherwise. But we should also remember that 
there is nothing in the word ``indispensable'' that means 
alone. We want and need other countries to have the desire and 
capacity to work alongside us in tackling global problems.
    The testimony Steve and I have submitted for the record 
makes a bipartisan case for continuing American global 
leadership in partnership with our allies while acknowledging 
that the international order needs refurbishment, as do most 
humans and institutions over 70 years. Drawing on the work of 
the Middle East Strategy Task Force, we also outline a new 
approach for dealing with the chaos and disorder of that 
region. In a moment, Steve is going to provide a brief overview 
of that strategy, but since we are both really looking forward 
to questions, I would just make a couple of points before I 
turn over to him.
    First, decades of experience have taught us that in order 
for America to engage effectively in the world, we need to be 
able to use every tool in our national security toolbox, and 
this includes diplomatic pressure, economic leverage, technical 
assistance, and threat of force. Any one of these tools is 
ineffective on its own, which is why Steve and I are opposed to 
the steep and arbitrary cuts to the State Department 
international affairs budget, which have been proposed by the 
Trump administration. Our diplomats work every day at 
considerable sacrifice to ensure that the United States has 
superb representation and that our interests demand that our 
military needs to achieve its mission. We cannot have that on 
the cheap.
    The truth is that foreign assistance, including programs 
aimed at promoting democracy, is among the most efficient and 
valuable tools that we have. And in the long run, nothing is 
more expensive than poverty, suffering, and war. So we have to 
invest the resources needed to make sure that our citizens are 
protected and our diplomats succeed. And this is especially 
true today when our personnel are often in danger in conflict 
areas and when our diplomats face criticism from would-be 
autocrats who do not like their advocacy for democracy, 
American values, and American nongovernmental organizations.
    As Senators and members of this committee, I know that you 
take your responsibilities very seriously to ensure that all of 
our instruments of national power are properly funded and that 
you will join us in rejecting these unwise cuts.
    As we consider America's role, another point worth 
emphasizing is that we need to be clear not only about what our 
Nation is against in the world, but what we are for. We cannot 
and will not give in to those who threaten us or who conspire 
to kill our citizens, but neither can we allow any enemy to 
cause us to abandon our ideals that made America a symbol of 
liberty and justice.
    For more than 200 years, our country's strength has come 
from our inclusiveness. You cannot tell an American by his or 
her last name. You all know me as Madeleine Albright, but in 
fact, my name is Marie Jana Korbelova. America has always been 
able to lead the world because we spoke and listened to people 
from vastly different cultures. Today I wear my pin of the 
Statue of Liberty. In today's era of interdependence, these are 
traits that we have to retain.
    And so as I said earlier, this hearing comes at a time of 
great consequence for our country and the world. So I thank you 
very, very much for your attention and for your interest in 
what we can do together. Thank you.
    [The prepared statement of Secretary Albright and Mr. 
Hadley follows:]

   Prepared Statement of Madeleine K. Albright and Stephen J. Hadley

    Thank you Chairman Corker, Ranking Member Cardin, and other 
distinguished members of the committee.
    We are grateful for the opportunity to testify before you this 
morning on the road ahead for U.S. interests, values, and the American 
people. In our testimony, we would like to offer our perspective on the 
current challenges to the international system, share some insights 
relevant to this topic from our Middle East Strategy Task Force, and 
suggest some ways in which Congress might be able to help forge a new 
bipartisan consensus on American foreign policy.
                      america's role in the world
    This hearing comes at a time of deep political divisions at home 
and heightened instability abroad. At this pivotal moment, we believe 
there needs to be a national debate about how and why America engages 
in the world. We also believe that Congress has a vital role to play in 
convening this debate, given its representative nature and the 
responsibilities given to it by the Constitution.
    Over the past 70 years, Democratic and Republican administrations 
alike have understood that American security and prosperity at home are 
linked to economic and political health abroad, and that America does 
better when other countries have the incentive and the capacity to work 
alongside us in tackling global challenges. This is why we constructed 
a system of international institutions and security alliances after 
World War II. They provided a framework for advancing economic openness 
and political freedom in the years that followed.
    The international order America built and led has not been perfect, 
but it has coincided with a period of security and prosperity unmatched 
in human history. And while many nations benefited from the investments 
America made in global security and prosperity, none benefited more 
than the United States.
    Yet today, the value of America's global engagement is under 
question. A substantial number of Americans feel that their lives and 
livelihoods have been threatened rather than enhanced by it. They view 
international trade as having shuttered the factories at which they 
worked, immigrants as threatening their standard of living or safety, 
and globalization as undermining American culture.
    This popular dissatisfaction needs to be understood and 
acknowledged. Washington needs to ensure that the benefits of America's 
international engagement are shared by all of our citizens. But we also 
need to be clear about the consequences of disengagement. For while it 
is comforting to believe that we can wall ourselves off from the 
ailments of the world, history teaches us that whenever problems abroad 
are allowed to fester and grow, sooner or later, they come home to 
America.
    Isolationism and retreat do not work; we know because we have tried 
them before.
    We also know, from recent experience, that if America recedes from 
the global stage, people in Africa, Asia, Europe, Latin America, and 
the Middle East will increasingly look elsewhere for inspiration and 
guidance--whether to authoritarianism or extremist ideology.
    In our opinion, such a shift would be harmful to the interests of 
those populations, but it would be harmful above all to the interests 
of the United States, because our security and our prosperity depend on 
having friends abroad that share our values--including our belief in 
the rule of law, freedom of movement, and access to markets.
    Neither Russia nor China proclaim the same loyalty to those 
principles as we do. Were they to fill a vacuum left by the United 
States, it could very well mark a return to a balance of power system, 
where the world's major powers competed militarily for territory and 
spheres of influence at great human and financial cost. This is a world 
to which none of us should want to return.
    America's continued global leadership cannot be taken for granted, 
but a retreat into isolationism is not preordained. We have an 
opportunity--and, in our view, an obligation--to defend those aspects 
of the international system that work in the twenty-first century, and 
to adapt those that do not.
    In doing so, we should acknowledge that the existing order is in 
need of revision and refurbishment. The international system was 
designed for a different era, and it requires a renewal of purpose and 
a reform of its structures. Its mission should more clearly extend 
beyond preventing war in Europe to include stabilizing other strategic 
regions that affect our well-being. Its approach should reflect the 
fact that long-term stability depends on well-governed states whose 
leaders are seen as legitimate by their people. And its structure must 
be adapted to the realities of a world in which power is more diffuse, 
so other countries can take on a greater role commensurate with the 
contributions they make and the responsibilities they assume.
    China, Russia, and other countries should understand that there is 
a larger place for them at the decision-making table, provided they are 
constructive and respect the interests of other nations. And they need 
to understand that there will be costs if they do not.
    For this and other reasons, U.S. military power will remain vital 
in a renewed international order. We appreciate efforts to ensure that 
our military remains the best-trained, best-equipped, and best-led 
force on earth. Given the variety of threats facing our country, it 
makes sense to continue upgrading and enhancing our country's military 
capabilities and deterrent power. But we strongly believe that it would 
be a mistake to increase defense spending at the expense of other 
critical investments in national security--especially those in 
diplomacy, development, democracy, and peacebuilding.
    We know from experience that force, and the credible possibility of 
its use, are essential to defend our vital interests and keep America 
safe. But as one of us has said in the past, force alone can be a blunt 
instrument, and there are many problems it cannot solve. Our military 
leaders would be the first to tell you that they cannot succeed in 
their missions without the vital capabilities that our civilian 
agencies bring to the table. Gutting these capabilities will put an 
unacceptable burden on our men and women in uniform, and would make 
America less safe. We need to fund these other civilian elements of 
American power as robustly as we do the military element.
    We recognize that government can always be made more efficient and 
effective, but the best way to accomplish that goal is to build a 
budget based on a sound strategy. This administration first needs to 
take the time to staff the Departments and agencies, and to develop a 
national security strategy. As members of the legislative branch, it is 
your responsibility to ensure that every dollar is spent wisely, but it 
also your responsibility to protect our national security institutions 
from arbitrary and senseless cuts.
                  the middle east strategy task force
    No region has seen more death and suffering or presented more 
challenges to the international order than the Middle East, with 
outcomes that have frustrated both Democratic and Republican 
administrations. The Middle East is likely to be an important test case 
in the coming years--the region in which the international order gets 
rejuvenated for a new era or ceases to function entirely.
    From 2015 to 2016, we served as Co-Chairs of the Atlantic Council's 
Middle East Strategy Task Force, which sought to understand better the 
underlying challenges in the region and to articulate a long-term 
strategy for meeting them. Our goal was not to develop a new U.S. 
strategy, but to understand the role that the U.S. can play in 
supporting a larger international effort led by the region itself.
    One of our initial insights was that we face not just a crisis in 
the Middle East, but from the Middle East having global impact. The 
roots of this crisis lie in a long history of poor governance in many 
states in the region. The Arab Spring was a consequence of the 
dissatisfaction of increasingly connected and empowered citizens with a 
number of political leaders who ruled ineptly and often corruptly. 
Where leaders sought to quash these popular protests by force, the 
result in most cases was Civil War.
    The four civil wars raging in the Middle East--in Syria, Iraq, 
Libya, and Yemen--have had destabilizing consequences for the region 
and beyond. They have produced the ungoverned spaces and grievances 
that have allowed terrorist groups to direct or inspire attacks in the 
West. They have also created the greatest worldwide refugee crisis 
since the Second World War, the devastating human cost of which has 
been coupled with profound effects on our own domestic politics and 
those of Europe.
    The challenges we face in the Middle East bear some resemblance to 
those of post-war Europe. Countries torn apart by war will need to 
determine the new shape of their governments, and how those governments 
interact with their people. The entire state system will need to be 
shored up so that countries are less prone to subversion, supported by 
effective regional institutions to mediate conflicts and prevent them 
from spiraling into all-out war.
    But there are also important differences between the modern Middle 
East and post-war Europe. There is no magnanimous victor in the mold of 
the Allies, with the will and capability to reshape the region from the 
outside. New global and political realities mean that no Marshall Plan 
is in the offing for the rebuilding of the Middle East. The American 
people have no appetite for this, and the people of the region, too, 
are tired of being beholden to outside powers. The Middle East must 
chart its own vision for the future.
    There is reason for hope. The fact is that now, more than any time 
in the Middle East's modern history, the region has significant 
capabilities and resources of its own to define and work toward this 
vision and secure better opportunities for its people. And more than 
ever, there are also indications that people and some governments in 
the Middle East have the will to take on the region's hard challenges.
    Although not always evident at first glance, there are promising 
developments happening in the Middle East, even in the most unexpected 
places. In Saudi Arabia, female entrepreneurs are founding startup 
companies at a rate three times that of women in Silicon Valley, as 
they begin to claim their rightful place in Saudi civic life. In Egypt, 
the social enterprise Nafham is using technological solutions to 
address the problem of overcrowding in Egyptian schools. And in Jordan, 
Syrian refugees are using innovative 3D printing technology to help 
develop more affordable prosthetic limb components for friends and 
neighbors who bear the physical scars of Bashar Assad's war on his own 
people. The region's vast population of educated youth, commonly 
understood to be a liability, can in fact be a tremendous asset.
    Some governments are beginning to understand that their future 
depends on promoting these efforts and partnering with their people to 
build a common future. Tunisia is showing that revolution need not 
result in either chaos or authoritarianism, but can begin a transition 
to an inclusive, democratic future. The UAE has led the way for 
positive economic and social reforms and Saudi Arabia has now adopted 
its own vision for the future. Jordan is making its own efforts. These 
can be examples for other countries in the region.
    Renewed and enhanced American leadership is needed in the Middle 
East. But not to impose our will militarily or otherwise. Instead, 
America has a clear interest in supporting and accelerating the 
positive changes that are already happening. The goal of our strategy 
in the region should be to help the Middle East move from the current 
vicious cycle in which it finds itself to a more virtuous one--one in 
which the Middle East no longer spawns violence and refugees, is not a 
drain on international resources, and does not through its instability 
and political vacuums aggravate great power competition.
    With this goal in mind, U.S. foreign policy toward the Middle East 
should be informed by a set of guiding principles that represent the 
new reality of the region since 2011.
    First, the old order is gone and is not coming back. Stability will 
not be achieved until a new regional order takes shape. The region 
should assume the principal responsibility for defining this new order, 
which should offer the people of the region the prospect of a stable 
and prosperous future free from both terrorist violence and government 
oppression.
    Second, disengagement is not a practical solution for the West. 
Disengagement will only allow the region's problems to spread and 
deepen unchecked, creating further threats. Instead, it is in the 
interest of the United States and others to help the Middle East 
achieve a more peaceful vision. But their role must be different from 
what it has been in the past. Rather than dictating from the outside 
how countries should behave, they should support and facilitate the 
positive efforts that some people and governments in the region are 
beginning to take.
    Third, a strategy for the region should focus on more than 
counterterrorism. Pernicious as they are, groups like ISIS and Al Qaeda 
are not the sole cause of the current crises. Even if these groups 
disappeared tomorrow, others would arise in their place so long as the 
underlying grievances that led to the Arab Spring remain unresolved.
    Fourth, sectarian and ethnic rivalries are not as entrenched or 
inevitable in the Middle East as many assume. Instead, they wax and 
wane with broader tensions in the region. Achieving political solutions 
to the civil wars would go far in stanching these communal tensions. To 
this end, empowered local governance will be essential going forward, 
so as to allow people the freedom to shape their own communities.
    Finally, the Middle East cannot build a better future without the 
active participation of the people of the region--including women, 
youth, minorities, and those displaced by conflict. If enabled and 
empowered, they can be the engines of job creation, help motivate the 
broader population, and innovate solutions to the region's economic and 
social problems. It is high time for all of us to bet on the people of 
the region, not just on the states.
    With these guiding principles in mind, we have, in our Middle East 
Strategy Task Force report, proposed a two-pronged strategy that we 
think will be able, over time, to change the trajectory of the region 
in a more positive direction, to the benefit of people in the region 
and the United States.
    The first prong involves outside actors helping partner countries 
in the region to wind down the violence, starting with the four civil 
wars. This means containing the spread of the current conflicts and 
accelerating diplomatic efforts to resolve them, while addressing the 
staggering humanitarian crises that they have generated.
    The most immediate priorities must be 1) mitigating the current 
human suffering in Syria and 2) recapturing the territory that ISIS now 
controls. A third, longer-term priority is to contain Iran's aggressive 
foreign policy behavior while still exploring opportunities to engage 
with it.
    Achieving these priorities will require a limited but greater 
degree of American and allied engagement in the region, diplomatic as 
well as military. This greater engagement and the kind of concrete 
steps we recommend in our report, taken together, will rally and 
reassure America's friends and allies in the region, send a message of 
strength to its adversaries, and provide additional leverage for the 
United States to work with all internal and external players to end 
these destabilizing wars.
    The second prong of the strategy, which must be pursued 
simultaneously with the first prong, seeks to support now those bottom-
up efforts that will create the social basis for stability and 
prosperity. This means supporting the citizen-based entrepreneurial and 
civic activity occurring throughout the region. It also means 
encouraging regional governments to facilitate these efforts, to invest 
in the education and empowerment of their people, and to address the 
societal, economic, and governance issues that are key to future peace 
and success.
    Ultimately, this prong seeks to unlock the significant human 
potential in the Middle East.
    Governments in the region need to create the enabling environment 
for individuals to deploy fully their talents, whether as innovators, 
entrepreneurs, or just engaged citizens. This means better and fairer 
legal and regulatory frameworks, but also more inclusive, effective, 
transparent, and accountable governance more generally.
    The United States should support those governments that are trying 
to create such an enabling environment. The idea is to create a ``more-
for-more'' relationship with countries in the region that are trying to 
do right by their people. The more ambitious the efforts for change in 
the region, the more support countries should expect from the United 
States--not as charity or aid, but because it is a good investment of 
resources likely to yield solid returns on our security. By the same 
token, where countries are not taking steps for change, they should not 
expect support--not because we wish to punish them, but because it 
would be a waste of our own limited resources.
    Most importantly, the American approach toward the Middle East 
needs to be colored with a good deal of humility. This is the most 
difficult problem that either of us has seen in our careers, and it 
won't be solved overnight. We all should be steeled for the long term, 
and prepared to weather setbacks when they come--and they will. But the 
good news is that our country has succeeded at long-term foreign policy 
challenges such as this before, not least the rebuilding of Europe 
after World War II and ending the Cold War. America's efforts were 
strengthened by a bipartisan national consensus regarding the 
importance of these missions and the soundness of the principles upon 
which they were based. It is time to forge a similar national consensus 
on our approach to the Middle East and, more broadly, the world.
                    conclusion: the role of congress
    Congress, especially the U.S. Senate, has an incredibly important 
role to play in forging such a consensus. It is our belief that 
Congress should:

    1) Help start a national debate regarding America's role in the 
world;

    2) On the basis of that debate, forge a bipartisan strategy for 
American leadership to build a revised and revitalized international 
order for the 21st century;

    3) Insist that American efforts to defeat ISIS and al Qaeda are 
embedded within a larger strategy to make the Middle East over time 
more stable and prosperous;

    4) Ensure that U.S. efforts at diplomacy, peacebuilding, advancing 
democracy and development do not get shortchanged as we increase our 
expenditures on defense; and

    5) Through its legislative actions, provide reassurances to our 
friends and allies regarding America's continued commitment to their 
defense and to a rules-based international system.

    We thank you again for this opportunity to testify before you and 
look forward to your questions.

    The Chairman. Thank you so much. I know this committee is 
thankful you changed your name----
    [Laughter.]
    The Chairman.--in that I have great difficulty with those 
kinds of things.
    So the Honorable Mr. Hadley.

   STATEMENT OF HON. STEPHEN J. HADLEY, FORMER U.S. NATIONAL 
                SECURITY ADVISOR, WASHINGTON, DC

    Mr. Hadley. Thank you, Mr. Chairman and Ranking Member 
Cardin, distinguished members of this committee. I appreciate 
the opportunity to be with you here this morning.
    One of the great privileges I have enjoyed since leaving 
government is being able to work with Secretary Albright on 
bipartisan efforts to try and solve some of these foreign 
policy challenges we face. And I am honored to be with her 
again this morning.
    She has set out and summarized our views in our written 
testimony. I would like to just elaborate on three points, if I 
could.
    First, the state of the U.S.-led rules-based international 
order. As Madeleine has so eloquently pointed out, for 70 years 
since the end of World War II, the centerpiece of American 
grand strategy has been to build and lead an international 
order that has advanced the causes of freedom, prosperity, and 
peace at home and abroad.
    But this international order is under enormous strain for 
the reasons that you are all aware of. Madeleine and I would 
argue that the reason for the current chaos and conflict and 
disorder in the world today is precisely because that U.S.-led 
international order is breaking down in the face of these 
challenges. At the same time, this global order needs to be 
adapted to the changes in the international environment that 
have occurred and to take account of the real grievances and 
concerns expressed by American voters in the last presidential 
election.
    This presents an opportunity, an opportunity for the 
Congress to work with the Trump administration, for Republicans 
and Democrats to work together on this common project, how to 
adapt and revitalize a U.S.-led international order.
    Congress can begin by conducting a national debate on what 
a revised and revitalized order would look like through a 
series of structured hearings. And these need to be held not 
just in Washington but throughout the country to ensure that 
congressional deliberations reflect the views of all Americans.
    A good place to start in this debate, I would argue, is a 
recently issued Brookings Institution report written by a 
bipartisan group of foreign policy experts, of which I was one, 
entitled Building Situations of Strengths.
    Second, let me say a word about the Middle East. This new 
international order and American leadership will be sorely 
tested in the Middle East, and as described in our Atlantic 
Council Middle East Strategy Task Force report, the goal of any 
strategy for the region should be to help the people in 
countries of the Middle East change the trajectory of events 
towards a more positive future. And any effort to do that is 
going to have to reflect the new reality in the region since 
2011 and the following guiding principles.
    First, the old order is gone and it is not coming back. The 
region itself needs to assume the principal responsibility for 
defining and building a stable and prosperous Middle East free 
from both terrorist violence and government oppression.
    Disengagement is not a practical solution for the United 
States. Disengagement will only allow the region's problems to 
spread and deepen unchecked, creating further threats. That is 
what we have seen for the last 5 or 6 years.
    But the role of the West must be different than what it has 
been in the past. Rather than trying to impose its will on the 
region, outsiders like the United States must support and 
facilitate the positive efforts of the people and governments 
in the region. And there are some and we talk about them in our 
report.
    A strategy for the region needs to focus more than on just 
counterterrorism. Pernicious as they are, even if groups like 
ISIS and Al Qaeda were to disappear tomorrow, others would 
arise in their place so long as the underlying grievances that 
led to the Arab Spring remain unresolved.
    Sectarian and ethnic rivalries are not as entrenched or 
inevitable in the Middle East as many assume. They wax and wane 
with the broader tensions in the region. Achieving political 
solutions in the civil wars, along with empowered local 
governance, letting local communities take more responsibility 
for their own future, can go a long way towards reducing these 
communal tensions.
    The Middle East cannot build a better future, however, 
without the active participation of the people of the region, 
including women, youth, and minorities. If enabled and 
empowered, they can be the engines of job creation and 
innovative solutions to the region's problems. It is high time 
for us to start betting on the people of the region and not 
just on the states in the region.
    So our report outlines a two-prong strategy.
    The first prong involves outside actors helping countries 
in the region to wind down the violence starting with the civil 
wars. This means containing the spread of the current conflicts 
and accelerating diplomatic efforts to resolve them while 
addressing the staggering humanitarian crisis they have 
generated. This will require increased diplomatic and military 
engagement from the United States and its friends and allies, 
something that is already beginning to see under the Trump 
administration building on what was done by the administration 
before it.
    The second prong of our strategy, which must be pursued 
simultaneously and in parallel with the first, seeks to support 
now those efforts in the region that will create the social 
basis for longer-term stability, prosperity, and peace. This 
means supporting the bottom-up citizen-based entrepreneurial 
and civic activity that is already occurring throughout the 
region. And it means supporting those governments in the region 
that are facilitating these efforts, that are investing in the 
education and empowerment of their people, and that are 
providing them with uncorrupt and effective governance. And 
there are some. You see it in UAE. You see it in Tunisia. You 
are beginning to see progress in Saudi Arabia. We need to build 
on these efforts.
    Finally, let me say a word about the significance of this 
last point, this prong two, for the budgetary guidance recently 
issued by the administration.
    Madeleine and I agree that we must continue to upgrade and 
enhance our Nation's military capabilities and deterrent power. 
There is no question about that. But accomplishing the second 
prong of the Middle East strategy we outlined requires the non-
military civilian instruments of our national security toolkit, 
diplomacy, trade and investment, development assistance, 
reconciliation, peace-building skills, and sound political 
advice. And these, of course, are exactly the things that have 
been targeted in the administration's recent preliminary 
guidance.
    Military forces can push ISIS out of Iraq, Syria, and the 
territory it controls, but they will return if those liberated 
lands do not enjoy some measure of political stability, 
societal reconciliation, and economic progress. And such 
progress requires the very non-military elements of national 
power targeted by the recent budget guidance.
    Failing to win the peace after so many have fought so 
bravely would be an insult to the memory of those who laid down 
their lives in service to our Nation.
    Thank you again for the chance to testify this morning.
    The Chairman. Thank you, both.
    Again, we apologize for the order of what is happening in 
the Senate today. I think what we will do, if it is okay with 
our ranking member--it is 10:37 now--is let us reconvene at 
10:50. So you guys do not have to sit there. You can come back 
here and make calls. As matter of fact, let us reconvene at 
10:55 to give us a chance to get over and get back and get 
settled. And then we will come back for questioning at that 
time, if that is okay. I think it is better for everybody here, 
everyone's questions, and for us to have a session that linear, 
if you will. So we will be back at 10:55. Thank you so much.
    [Recess.]
    The Chairman. The Foreign Relations Committee will 
reconvene.
    I just will ask a question. I usually defer, but I am going 
to ask just one.
    We had a great meeting with Tillerson last week just to go 
through I think every member of the Democratic side and there 
were three members on the Republican side missing, but a large 
group. I think most of us up here support the efforts that our 
Nation, Hadley, while you were in office, put forth relative 
the PEPFAR. Unbelievable what we have done.
    I think we all understand we put forth one-third of the 
food aid in the world, and we are thankful especially at this 
time of tremendous famine around the world, manmade conflicts 
creating famine. We are thankful for that. I plan to be in the 
region in the next couple weeks to highlight that.
    But we also know the State Department is really bloated. We 
have realized through some hearings recently there are 54 
special envoys. I mean, it is ridiculous. I mean, you look at 
the names of these. It is just absolutely--it will make your 
blood boil that there is this much.
    Tillerson has gotten over there, and I think he wants to 
reform it and transform it. I know Condi Rice is going to be up 
here today talking to Republicans about the foreign operations 
budget. And again, I am saying I support those things that are 
transformative. I really do.
    Slavery. I mean, I hope we are going to be able to use the 
same principles that we have used with PEPFAR on modern slavery 
today with 27 million people.
    At the same time, much of what we have done for years is 
just doubling down on the Cold War model of buying influence 
towards no end.
    So is it not somewhat healthy to have a discussion about 
the State Department, about the fact that for years we have 
been working around ineffective Assistant Secretaries by 
creating envoys, about the fact that we have programs that 
basically need to be--so that we can do things that make a 
difference like Electrify Africa, like the food aid reforms 
that have been put in place? So is this not a healthy 
discussion for Congress to be having at this moment knowing 
that, again--I could not agree more with Secretary Albright. We 
have to lead the world, and with that comes resources. And to 
the extent we are not successful diplomatically, our young men 
and women in uniform, who we treasure, are going to be in 
harm's way in more instances than they otherwise would be.
    Mr. Hadley. I would agree with you completely. I think, 
though, you have to start from the premise that these non-
military elements are important and that our young men and 
women who served in Iraq and Afghanistan will tell you and have 
told you they cannot achieve their military mission if they do 
not have a robust non-military civilian partner in all these 
areas to work with them. So if we start with that premise, then 
the question is we ought to try to have these non-military 
elements to be as efficient and effective as they can be. And 
the question is how you get there.
    And my recommendation would be Secretary Tillerson, 
nominated by the President, confirmed by the Senate, to head 
the State Department--why not give him some time to learn his 
organization, figure out how he wants to reorganize it and 
strengthen, and then on the basis of his plan for the 
Department, come to the Congress of the United States and say I 
can cut these things, I can eliminate these things, but some of 
these things actually maybe I need to plus up.
    I think the concern we have is it seems across-the-board 
meat axe rather than pursuant to a plan, and it seems to be 
premised on the notion that we do not need these non-military 
elements as part of our national security toolkit. If we can 
agree that we need them and the goal is then to make them more 
effective and to shrink them and make them more efficient where 
that is appropriate, then the question is how do you do that. 
And I think that is what you as a committee should be looking 
to Secretary Tillerson to do and give him the time to do it. 
That would be my view.
    The Chairman. I think that is kind of what is happening. Is 
it not? I mean, the President's budget--I mean, it goes in the 
waste basket as soon as it gets here. So is that not what is 
happening? Secretary Albright?
    Mr. Hadley. Maybe you can make it happen.
    Secretary Albright. Thank you very much. And I agree with 
the way Steve has framed this, but I have somewhat mixed 
feelings in terms of the State Department.
    I think that there are a lot of people there that are 
dedicated American servants and need to be respected for what 
they do. And so I have not liked some of the kind of 
descriptions of them as kind of useless and not doing the 
things that they are supposed to do.
    I do think that, as Steve said, we need to have the 
functions that the State Department does. It is a complicated 
place, and it is a place where most of the people actually are 
serving abroad. That is part of the issue. And the question 
then is what is the size of our missions, how do they operate, 
whether they sit behind walls because they are afraid of 
security or whether they go out and do, as Condi actually 
talked about, expeditionary and really go out there and be a 
part of it. So I think that there needs to be a discussion 
about it.
    What I am troubled by, I have to tell you, is that I think 
that it is important to give the new Secretary of State time. 
And people say it is early, but soon it will be too late. And I 
think, therefore, there really has to be a better sense of what 
is going on at the State Department and to have them have a 
feeling that they are part of America's representation and that 
they are respected, and that this will not be just 
reorganization for the same of reorganization. It is 
complicated. It takes time and it takes away in some way from 
the mission of what our diplomats do, which is to be engaged 
abroad and to represent our country, which then leads I think 
to the larger question that both of you raised, what is our 
national security policy. When are we going to be clear about 
the direction in which this administration is going in terms of 
the whole-of-government approach to it and what is the role of 
the State Department?
    The Chairman. Let me just move to--I usually do not take 
any time on the front end--a couple things.
    Number one, we had witnesses in last week, Republican and 
Democrat, who had worked in the State Department, who basically 
talked about these special envoys as being workarounds, that in 
essence, when they had somebody that was not effective, we 
would create a special envoy. So I am really referring to 
testimony from folks within the State Department.
    Secondly, the President, as I understand it--and we are 
working closely. They are developing a strategic vision. It is 
going to be due in September, and we are going to be very 
involved in that. So they have come into office--let us face 
it--in many cases had no institutional support. We are, 
hopefully, going to help with some of that, and you are helping 
with that today. So that is happening over the next 6 months.
    And I think that Tillerson feels, just for what it is 
worth, that he has got professionals there that he is working 
with. We would like to have some nominations. When we thought 
we were going to be in the personnel business, we are not. We 
have no nominations. But he told us the other day he is working 
with people who have been there for years. They are very 
professional. They are helping him immensely. He will take his 
time to do what he is doing.
    So, again, I look at the budgetary piece. I do not know 
when we take it up, but it seems like to me it is going to be a 
long time from now--is it not--where we actually deal with next 
year's appropriations. So, again, as I look at this, I think 
there is a lot of ``hair on fire'' discussions.
    Mr. Hadley, you know, you were kind of Tillerson's agent I 
think in coming in. You engaged and Condoleezza Rice. So I 
assume that you being his agent and wafting him into this 
position, you can have some influence over this.
    But, again, I do not see this as being quite the way people 
are laying it out. I think it is much healthier. And I do agree 
that lopping everything off to support defense is the wrong 
place.
    Senator Cardin?
    Senator Cardin. Well, Mr. Chairman, just because we have 
not done fiscal year 2017, you think we are not going to get to 
fiscal year 2018 for a while. I understand that.
    I wish it was true that the President's budget was thrown 
in the waste basket, but it is very much referred to by 
stakeholders and it is a message to stakeholders, whether they 
are American or whether they are international. And it is 
troublesome. What really worries me is at times used as a 
yardstick. And if the President's budget is used as a yardstick 
with the programs under the Secretary of State, we have serious 
challenges in this Congress. So I am with you. Throw it in the 
waste basket.
    Just one quick question, if I might, on the State 
Department and trying to figure out where it is going. We have 
had some really good discussions with the Ambassador to the 
United Nations, and she is going through significant change 
there in a very open, transparent way, and I think is giving 
confidence to our mission at the United Nations, as well as the 
international community, that America is going to be a player.
    I do not see that from the Secretary of State. He has a 
different way of operating. He does not hold press conferences. 
He does not do things in an open way. And, Secretary Albright, 
you got to fight within any administration as a cabinet officer 
for what you believe in, but if you do not have a more open way 
of how you are doing your business, does he cede power by not 
getting a better way to broadcast what he is doing?
    Secretary Albright. Well, I do think that having a public 
voice makes a big difference. And the Secretary of State is the 
person that publicly describes what our policies are and the 
direction that we are going in.
    As I said, I do think that Secretary Tillerson is somebody 
that has not been a part of a governmental system. So I think 
that he is entitled to have some time to figure out what is 
going on.
    But I do think that one of the issues--and you have spoken 
about this. We all have a number of times--the Russians are 
actually very good at propaganda. That is their specialty. I 
think we need to be better at public diplomacy which explains 
what our position is, and the Secretary of State is the main 
person to do that. Therefore, silence is not a good idea.
    I think that Ambassador Haley has really done a terrific 
job. There is no question. And I think I may be one of the few 
people that truly understands the relationship between 
Secretary of State and U.N. Ambassador, having been both. It is 
a peculiar relationship, if I may say so, because what happens 
is the U.N. Ambassador is an instructed Ambassador, but at the 
same time, a member of the Principals Committee that is 
required to have an independent voice. And so the question is 
how they actually do relate, how they work together. And I 
think that Ambassador Haley has really done a great job in 
explaining our position internationally. She is appreciated in 
New York and internationally.
    I wish that the Secretary felt more comfortable taking the 
press with him when he goes abroad because they provide an echo 
chamber of what is going on in terms of how others understand 
what our policies are.
    Senator Cardin. That is very helpful.
    I want to get both of your responses to a real concern I 
have about human rights. We have seen more and more atrocities 
around the world, what is going on in Syria, what is going on 
in South Sudan. We can mention many, many other countries where 
atrocities are going on. It just points out the importance of 
dealing with the seeds of discontent and U.S. presence in the 
global community through what we do at the Department of State.
    I am concerned how high of an elevation these issues will 
be in critical meetings that are going to be taking place 
shortly. President Trump will be with President Xi. How 
important is it that human rights be on that agenda, that there 
be mention of our concern about what China is doing in 
repressing its own people so that America's values and ideals 
are at the table?
    We know that the Secretary of State will be traveling to 
Russia. How important is it for him to meet with opposition 
people or NGOs in order to show Mr. Putin that America stands 
by its values?
    President Sisi will be here from Egypt. How important is it 
on the agenda that the reform issues that are so critically 
important to the Egyptians are on the agenda between the 
President at that meeting? And if they are not, what signal 
does that send?
    I will take both of your answers.
    Secretary Albright. Let me just say that I do believe that 
it is essential for the United States to make our value system 
clear. I believe in a moral foreign policy.
    I think the question always is how do you combine idealism 
and realism. I had real problems with this because I did not 
know whether I was an idealistic realist or a realistic 
idealist. And in many ways it is a false dichotomy because you 
need both. And I have often compared policy to a hot air 
balloon. You need the idealism in order to get the balloon up, 
and then the ballast of realism to give it a direction. So you 
need both.
    But in terms of when the Secretary of State or the 
President of the United States or anybody goes out in order to 
represent us, I think the human rights issues have to be on the 
talking points because if they are not, then people do not 
understand that it is a basic aspect of our foreign policy. And 
whenever I went out, we went through various talking points and 
business, but always I raised the human rights issues wherever 
I was. And I did have kind of a trick which I would say I have 
come a long way, so I must be frank. And it really is one of 
the basic aspects of American foreign policy.
    I am deeply troubled by the fact that the Secretary was not 
there to present the Human Rights Report, that this 
administration has not really spoken on the values aspect of 
our foreign policy because it is a basic aspect of it. I also 
do think it is important to meet with opposition people. But I 
think this balance always, to be completely fair about it, is a 
balance between the realism and the idealism, and you figure 
out what you can do where. But it is a mistake if it is not 
brought up.
    Senator Cardin. Let me take the chairman's prerogative and 
ask Mr. Hadley as the advisor to Secretary Tillerson, what 
advice will you give him on these issues?
    Mr. Hadley. I am not an advisor to Secretary Tillerson. I 
think he is a terrific candidate for Secretary of State.
    Look, Ambassador Haley is a practicing politician. She has 
been dealing with media. She knows the role they play. 
Tillerson is a former Fortune 100 chief executive officer. As 
he said, he is an engineer. Give him some time to make the 
transition. It is a difficult transition he is trying to make. 
He is an engineer. He learns the facts and then follows the 
facts. And I think we need to give him some time to do that. 
And I am encouraged at what the chairman said that from the 
standpoint of this committee, he will be given the time to 
figure out how to strengthen and make more effective our State 
Department. That is where it ought to happen.
    Basically on your question of human rights, I think the 
pursuit of our ideals in our foreign policy is one of the most 
realistic things we can do because a world that is more based 
on our ideals is going to be a more congenial place for America 
and the United States. So this notion that there is a war 
between realism and idealism I have never embraced.
    Second, you indicated you are having a good dialogue with 
the administration. I would put this issue of the role of human 
rights in our foreign policy on that dialogue and have a candid 
discussion about how to do it. It is I think a fairly subtle 
mix of some things you do publicly, some things you say 
privately, and some tradeoffs and compromise you make because 
human rights is not the only thing that is in our interest to 
pursue. It is a delicate matter.
    And Egypt is a good case. And we say in this report that we 
have done we need to embrace Egypt. We need to show we are 
going to be a strong ally. We need to maintain our military 
assistance. I think if you put your arm around a country and 
show that you are a strong friend and ally and stand with them, 
it is easier to have a candid conversation where you say to 
President Sisi, you cannot crack down your country into 
stability. In the end of the day, there will be no long-term 
stability until you open up your politics in a way that is 
consistent with the pressure you face from the terrorism. But 
that is the only way to get true stability. I think you have 
got to reassure someone before you deliver that message.
    Senator Cardin. Thank you.
    The Chairman. So I want to apologize to everybody for both 
of us having gone over.
    And I just want to say, look, I had strong disagreement 
with the foreign policy positions coming in on January the 
20th. I have seen a significant evolution--significant--on 
NATO, on Israel, on China, on numbers of issues. And I really 
believe that once we can all get past what happened on November 
the 8th, this committee has more opportunity to shape this 
administration than at any time I have seen since I have been 
here in 10 years. And I think that is a positive thing.
    Senator Young?
    Senator Young. Thank you, Chairman.
    Thank you so much, Madam Secretary, Mr. Hadley, for 
appearing before this committee.
    The first thing I would like to ask you about relates to 
our organization over at the State Department. State and USAID 
seem to operate in stovepipes of sorts as we carry out our 
diplomacy efforts, our aid efforts, and the stovepiping 
continues not just within our State Department and USAID but 
across agencies as we look to try and improve our diplomatic 
efforts. Our interagency coordination seems to be fertile for 
improvement, at least from this vantage point.
    So, Mr. Hadley first, if you please, and then perhaps 
Secretary Albright. Do you believe it would make sense to 
establish a statutory requirement for State and USAID to 
periodically produce and submit to this committee a national 
diplomacy and development strategy in direct support of our 
national security strategy? It would establish real diplomatic 
and development priorities, objectives, metrics, balance ends 
and means. At least that would be the idea. I will be quiet for 
now and get your thoughts on this.
    Mr. Hadley. I think it is a terrific idea. What I would 
hope to see is that we get a national security strategy out of 
the White House and the administration that reflects the 
priorities of the President hopefully this fall. And then that 
document would be taken to develop a national defense strategy, 
if you will, with the Defense Department in the lead and the 
kind of national diplomacy development and democracy strategy 
out of the State Department. And I would hope those two 
organizations would develop their products on an interagency 
basis and in coordination with each other because in theaters 
like Iraq and Afghanistan, they have to be mutually supportive.
    The hardest thing in the government is integration. It is 
all organized with vertical cones, with people operating in 
their narrow spaces. And the hardest thing is to integrate 
across those in service of a national strategy. And we need the 
kind of process you described to give that strategy and to 
integrate and give people basically the plans for going forward 
to achieve that strategy.
    Senator Young. Secretary Albright?
    Secretary Albright. I do believe that we need to have more 
of a whole-of-government approach to all of this. In addition 
to the Defense Department, there are other parts of the 
government that also need to be a part of it. We were talking 
earlier today with some people about the Agriculture Department 
needs to be a part with Public Law 480 and how it affects our 
farmers, et cetera.
    So one of the things, frankly, Secretary Clinton tried 
under this thing called the QDDR of trying to bring more 
rationality to the State Department budget and the USAID 
budget. I have to tell you I tried because part of the thing 
that you want to do is to have there be some relationship 
between the projects that USAID does and American policy.
    But I do think the stovepiping hurts. I cannot tell you how 
many various reorganizations I have looked at ever since even 
the Carter administration on how to bring all this together.
    Senator Young. So do you think codifying the QDDR----
    Secretary Albright. I think would make a difference.
    Senator Young.--would help?
    Secretary Albright. Yes. But it also is in terms of the 
preparation of it, that kind of action together is good.
    Senator Young. Let me briefly pivot to the AUMF, I know 
something you have spoken to in a previous hearing here on the 
Hill. On March 22nd, we had Secretary of Defense Mattis testify 
before the Senate Defense Appropriations Subcommittee, 
indicating that he thought that a new AUMF focused on ISIS 
would be a statement of the American people's resolve. It would 
hearten our allies, something of importance to this committee 
certainly, and give our troops a sense of purpose.
    You echoed your support for that, Mr. Hadley. You said you 
thought it would be a good thing in response to Representative 
Banks in your testimony at the HASC recently. Secretary 
Albright, you indicated that you thought you believed that 
there needs to be an AUMF.
    Why do you believe there needs to be an AUMF? I will start 
with you, Secretary Albright.
    Secretary Albright. I think, first of all, because the old 
ones are not really representative of what is going on now and, 
second, because I think that we need a public debate about what 
America's role is in the world. And in many ways, an AUMF is a 
very good vehicle for it. I know Senator Kaine has been talking 
about this for some time. I do believe in the executive/
legislative relationship on this.
    But most of all, I think the American people need to 
understand why we send our troops somewhere, what is the 
purpose of it, how does it add, and it is a great mechanism for 
actually forcing a national debate that Steve and I have been 
talking about generally is necessary and especially given what 
has already been said by some of you, which is we are in a 
different kind of a world. And the American public needs to 
witness their representatives having this serious discussion.
    Senator Young. Well, I agree with you. That is why I have 
introduced an AUMF, Senate Joint Res. 31, on March 2nd.
    Mr. Hadley, anything to add to the Secretary's commentary?
    Mr. Hadley. I agree with Madeleine. I have not read the 
resolution you introduced. But we need a new AUMF to clarify 
the mission and the authorities in light of the fact that we 
have a new administration in the White House.
    Second, we need the kind of national debate Madeleine 
talked about.
    And third, the Congress needs to be on record in support of 
this effort against ISIS. You are the vehicle for the 
expression of the popular will, and you need to be on record.
    Senator Young. Thank you.
    The Chairman. I know that Mattis has developed a strategy. 
He gave it to the President 30 days ago. That was not accepted, 
as I understand it. They are reworking it. But we do wish for 
them to come up and lay out their new strategy, and I think 
that would be the appropriate time for us to take up an AUMF 
when we have a new administration and really tease out where we 
are going. So I think that is very healthy.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    Thank you both for your extraordinary service to our 
country and for consistently coming back to the committee to 
give us insights. We appreciate it.
    I want to focus on one part of your testimony where you 
talk about the international order. And you mentioned--and I am 
going to quote directly from your written testimony--China, 
Russia, and other countries should understand that there is a 
larger place for them at the decision-making table provided 
that they are constructive and respect the interests of other 
nations. And they need to understand that there will be costs 
if they do not.
    My question is understanding your views that the 
international order needs to be updated in terms of its 
institution, its magnitude to deal with the realities of the 
new world, but to the extent that we have countries that 
violate the international order, what is it that we do to bring 
them back into the international order? Because I am concerned 
that if at the end of the day, just to take Russia as one 
example--but they are not the only ones--if you can ultimately 
go ahead and invade Ukraine, take Crimea, continue to 
destabilize eastern Ukraine, indiscriminately bomb civilians in 
Aleppo, try to undermine the Baltic States, try to undermine 
democracy across Europe, and have a cyber attack against the 
United States in terms of our own democracy--regardless of 
whether they succeeded or not, the mere fact that they tried 
should be upsetting to the President of the United States and 
to the average citizen and everybody in between. There has to 
be consequences for that because otherwise the message to 
countries globally and leaders globally is you can violate the 
international order and ultimately face little if no 
consequence.
    So my question to you is, what are the best ways in which 
we get countries that do violate the international order to 
seek to bring them back within the international order?
    Secretary Albright. Well, let me say I think that what we 
have to do is look at all the tools in the toolbox in terms of 
being able to bring them back. I believe that the previous 
administration did the right thing in terms of imposing 
sanctions on Russia for their behavior because what they did 
was illegal. And I think part of it, though, now is how you get 
others to be with us on it, so therefore, diplomacy and getting 
the European Union to stay with the sanctions program I think 
is very important. I also think that public diplomacy in this 
is very important for people to speak out that are public 
officials about what has happened because it is completely 
illegal and needs to be called out.
    The other part, however, is to use some silent diplomacy. 
And I hope very much that when Secretary Tillerson goes to 
Russia, that he makes very clear where we are on this because 
unless we speak with one voice, it will be very hard for the 
Russians to get the message.
    And the other I think is in fact to see how generally the 
international community can be on the same side of this. So it 
takes diplomacy. I think sanctions have to remain in and to 
make our message completely clear because if we do not, then it 
will happen again somewhere else. And I would also use the 
alliances that we have, NATO, to make those kinds of 
statements.
    Mr. Hadley. I think it depends on the country. I think most 
Chinese understand that they have dramatically benefited from 
this U.S.-led international order over the last 30 years in 
terms of their own prosperity and security. And for China, the 
way you bring them into the order is actually show them that 
they can have a place at the table, that there needs to be 
revisions to the international order to reflect the changes 
that have occurred. That is why it was so important that 
Congress finally changed the shares in the IMF so that China 
would have a bigger role. I think we also ought to be receptive 
to proposals for China to supplement that international order 
like the Asia Infrastructure Investment Bank, which I think is 
a good thing and I think the United States should have joined.
    Russia is a different category. Russia has clearly ripped 
up the international order in Europe, and that is why the 
sanctions are appropriate. That is why it is important that we 
be strengthening NATO, positioning troops in the Baltics and 
the Balkans and the like so that Russia knows it cannot pull 
again what it did in Ukraine.
    The question is having put those sanctions and those 
consequences for the violations for an order, do they want to 
come back into an international order and how do you walk them 
back into that order. I think that is the challenge for the new 
administration.
    Senator Menendez. Does it concern you, as it concerns me, 
that the President as obviously the chief leader in foreign 
relations has not raised the concerns about Russia that one 
would think that he would even as he seeks to develop a new 
relationship? But that does not stop you from calling out a 
country that has violated the international order because when 
you speak, Madam Secretary, of speaking with one voice, that 
would be the most powerful voice to send a very clear message 
to the Russians.
    Mr. Hadley. I think that is right, but I echo the point 
Senator Corker made. The evolution in the attitude of the 
administration on Russia since the days of the campaign is 
pretty dramatic, and it has changed. And it has changed because 
of things that the new administration has heard from the 
Congress, from friends and allies, and from things Putin has 
done. So Tillerson is now going to go to Russia. There is a 
policy review going on to try and set the policy for that. I 
think we need to let this evolution go, and I think there will 
be an opportunity pretty soon early on to see where the 
administration is heading. But I think there has been a pretty 
dramatic correction in their attitude toward Russia, and I 
think it is a good thing.
    The Chairman. I could not agree more. And I think people on 
both sides of the aisle, as you mentioned, played a big role in 
that evolution. I think Tillerson is going to be very much in 
the main stream of U.S. previous thinking.
    Senator Flake?
    Senator Flake. Thank you.
    Thank you for your testimony. Thank you for your long 
service to the country.
    I would like to know what are your thoughts--I apologize if 
it has been asked before--with regard to the travel ban that 
has been proposed. How is that viewed by our allies and our 
adversaries? Does it work in our favor?
    Secretary Albright. I do not think the travel ban works in 
our favor. I think that it has made it a more dangerous place 
for the United States. And a number of us have made that point 
in terms of that it has become a recruiting tool. It is a gift 
in many ways to ISIS.
    It also I think undermines what America is really about. We 
have not discriminated against people coming into this country 
based on religion and ethnic background. And I really do think 
that it has not been helpful.
    I do think that a country is entitled to make decisions 
about its immigration policies, and I do think that it would be 
very useful if in fact there was an overall approach to what 
our immigration policy should be.
    Senator Flake. Thank you.
    Mr. Hadley?
    Mr. Hadley. Obviously, it is legitimate to say we need to 
make sure we have the best vetting we can of refugees and 
immigrants. That is fine. The problem with the ban, of course, 
is it has had all the negative effects in terms of the 
reactions about countries overseas and the Muslim community 
here at home, and it has never been in effect. So it is the 
worst policy you can have, all the negative effects and none of 
the benefits because each version has been quickly suspended by 
the courts.
    I would hope the administration is using the time, during 
the period that the ban has been suspended, to improve the 
vetting process so that we, in some sense, do not need this 
temporary ban and can get back into regular order. I do not 
know whether they are doing that. I hope they are.
    Senator Flake. Thank you.
    You talked about the importance of a bipartisan foreign 
policy. Sometimes I think we feel on this committee that we are 
the last bastion of bipartisanship. But I do feel that it is 
important.
    What message is sent to our allies and our adversaries 
abroad when there is disagreement, the failure to agree on an 
AUMF, for example, and to speak with one voice on foreign 
policy matters? Why does that matter to our allies and our 
adversaries?
    Secretary Albright. I think there are really two parts to 
it. I do think we need to make clear that in a democracy, there 
is discussion and respectful listening to other people's views. 
That is one of our strengths. I think the question is how the 
message is distributed in the first place, which makes it look 
as though there is massive disorganization rather than a really 
overall policy.
    The other part that I think we often forget is that other 
countries do not get a clear message about what we are about. 
And I think that that is what is worrisome. I think some of you 
were at the Munich security conference, and it was very clear 
that people were very confused about what our message really 
was when we speak and what are words and what are actions. And 
so there is this balance between making clear that we respect 
each other's ideas and then looking as though we do not have a 
policy together.
    May I say I really do understand the need to give a new 
administration time. But I think there really is a question 
about how long it takes, and that that is also providing 
something negative. Most of us travel abroad, and I think that 
people are confused. And we only have a certain amount of time 
to set the message straight.
    Senator Flake. Mr. Hadley?
    Mr. Hadley. Bipartisan foreign policy is going to be much 
stronger and sustainable. I worry that we are in a situation 
that when we have a Republican President, we have a Republican 
foreign policy, and then a Democratic President, we have a 
Democratic foreign policy. And this back and forth flip-
flopping is not progress. The foreign policy successes we have 
had are ones where we have had bipartisan support for a policy 
that is sustainable over generations of political leaders, 
quite frankly, whether Republican or Democrat. That is how we 
ended the Cold War successfully. That is how we dealt with 
Colombia. That is how we have dealt with the war on terror. 
That is where we make progress. And this back and forth is not 
working for us.
    Senator Flake. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. I could not agree more, and that is why I 
think this next 6 months gives us an opportunity that frankly 
we have never had. Generally speaking, I do not think there is 
a strongly formulated foreign policy coming out of the White 
House. I think that is an observation that is fair. And I think 
we have an opportunity to shape that.
    Senator Coons?
    Senator Coons. Thank you, Chairman Corker, Ranking Member 
Cardin, and thank you to both our witnesses for your lifetimes 
dedicated to public service and to advancing American diplomacy 
and to defending the post-Cold War order that we built and from 
which we deeply benefit. I do think it is vital that this 
committee in a bipartisan way engage in this conversation both 
the administration and with the American people.
    So let me ask you first. It was touched on earlier in 
passing. Given the real disconnect between the political or 
professional or elite class in Washington that pays attention 
to foreign policy on a regular basis and is distributed around 
the country and what we have seen in the last election cycle in 
both parties, a deep skepticism about globalization, about 
international engagement, how do we better explain to the 
American people about the value of international engagement and 
the need to secure our interests and promote our values? And 
how would you structure that engagement in a way that actually 
makes a difference and moves the needle so that we are not just 
talking to ourselves, but we are engaging with and accountable 
to our constituents as we try to craft an enduring world order 
2.0? If you might, Madam Secretary.
    Secretary Albright. I think the important part would be to 
take it on the road, frankly. And I think that we not only need 
to respect each other, but we need to respect the American 
people and to explain what our foreign policy is about. I have 
to say I keep trying to make foreign policy less foreign. And 
basically what needs to happen I think is to identify it with 
the interest of the people in X place. In many ways, people do 
understand that we depend on an export market or that our 
farmers appreciate Public Law 480 or that there are certain 
aspects that definitely affect a specific district or region. 
And what I would hope is that you all would go on the road. And 
may I say that I volunteer to go on the road with any of you 
because I think that it is important to have a discussion and 
that takes it to the American people and understands that our 
stake is the job of the President of the United States to 
protect our people, our territory, and our way of life. That 
depends on how we operate in the world, and we need to bring 
the American people into that discussion.
    Senator Coons. Thank you.
    Mr. Hadley?
    Mr. Hadley. I completely agree. At the end of our written 
testimony, we gave you a bit of a road map because we think 
Congress needs to lead this national dialogue. The Congress has 
done it at times in our history, in the 19th century, the first 
half of the 19th century over the Vietnam issues. I think there 
is a huge opportunity for Congress on a bipartisan basis to 
lead this debate.
    I would urge you to figure out how to use the new media and 
new vehicles. Madeleine and I have this long 80-page report, 
which will put you right to sleep, though there is a lot of 
good stuff in it. And we went out on the road with it, and she 
would talk for 10 minutes. I would talk for 10 minutes. The 
people at the Atlantic Council did a 3-minute video that is the 
essence of the report. It is a better communication vehicle. I 
would like to see the Congress figure out how to do the new 
media so that the American people would look to Congress as the 
forum for debate on major national issues. I think that is a 
huge opportunity for you.
    Senator Coons. I agree. I think we may conclude that the 
outcome of these years is to make the Senate great again for a 
variety of reasons.
    As you both know, I have an annual conference in Delaware. 
I have done it 6 years now--that is focused primarily on 
Africa. It was to try and help explain to the people of my 
state why I was going to Africa regularly and to help me get 
better input from them about how it connects to faith 
communities, to Diaspora communities, and to business concerns 
and opportunities for our state. And I have looked to USGLC for 
some partnership in expanding that and broadening it and 
sustaining it. I would be enthusiastic about working with any 
member of this committee because I frankly think when we go to 
our home states in bipartisan pairs to talk about and hear 
about the challenges we face, we strengthen and sustain our 
long-term work.
    Could I ask one more quick question, Mr. Chairman?
    The Chairman. Sure.
    Senator Coons. As we look at the world order, I am 
particularly curious about India. We have, as you both 
discussed, real challenges with both Russia and China and their 
infractions or persistent and active actions to remake or 
violate or break the world order. How do we better engage 
India? And are you optimistic that they might be a solid 
partner for us in strengthening and re-imagining the world 
order?
    Mr. Hadley. I think we have already started it. And again, 
on a bipartisan basis, President Clinton actually started the 
first outreach to India. The Bush administration built on it in 
terms of the civil nuclear deal. The Obama administration 
pursued it. We all did that because we saw India emerging as a 
major global player and wanted it to be with us in maintaining 
that U.S.-led international order, not undermining it. So I 
think the foundation is laid, and I think there is a real 
opportunity for the Trump administration to build on that 
because India is increasingly a player and it is in our 
interest for them to be so since we share a lot of common 
values.
    Secretary Albright. We are the world's oldest democracy. 
They are the largest. We have an awful lot in common. And I 
think that the bipartisan approach that Steve described--it was 
great to go to India with President Clinton and then to have it 
be picked up. And it goes to the business that we have been 
saying earlier. You cannot have a Democratic foreign policy and 
a Republican one. Things kind of take longer to evolve, and so 
I really do think that it is an important relationship by 
location as well as by character of what the country is about.
    Senator Coons. Terrific. Thank you both.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you both very much for being here.
    I had the opportunity to go with some other folks here to 
the Munich security conference this year. And it struck me, as 
we heard the Vice President come and address the group and said 
all the right things about our relationship to Europe--we heard 
that from Senator McCain. We heard that from General Mattis. 
And yet, the Europeans who were there who I talked to were 
still very anxious because they were hearing a different 
message coming from the President. And it strikes me that one 
of the challenges that we have right now is getting everybody 
on the same page when it comes to our foreign policy. I think 
one place that that continues to be an issue is in Europe 
because of Russia and what Russia appears to be doing, but also 
because of statements that have been made with respect to the 
EU, to NATO.
    I know you just finished your report on the Middle East and 
issues have been raised here about Russia, China, India and 
Africa. But it seems to me that one of the places where there 
is the greatest potential for harm right now is in Europe with 
Brexit, with what is happening in the elections with Russia's 
meddling there.
    So what can we do to--and given the importance of our 
transatlantic relationship with Europe and the stability that 
that has provided since World War II, what can we do to better 
reassure our European friends and allies about our support for 
Europe and for this relationship? And how can we help as there 
are challenges that they are facing right now?
    Secretary Albright. I also was at the Munich security 
conference, and I think we have always been the center of 
attention there but never in quite the way that was 
uncomfortable in terms of what America's role was.
    And I think that part of the issue with Europe is I happen 
to believe that we always wanted to have a strong European 
Union because they are potentially our best partners in doing 
things in other parts of the world. They felt that we were not 
paying attention to them enough, but they also have had serious 
internal problems that the EU seems like a disconnected bunch 
of bureaucrats whereas they have internal problems and we are 
seeing them now.
    I do think that the United States has to have a double 
approach to this, which is to deal through the European Union 
and NATO. And by the way, I am very glad that Secretary 
Tillerson is now going to a NATO meeting.
    Senator Shaheen. Me too.
    Secretary Albright. But also to look individually at what 
the countries need and want especially as there are stresses 
and strains on it. I do think we have a vital relationship with 
Germany, and Chancellor Merkel's visit here was an important 
one. I hope the right messages really came through in terms of 
our support. But I think we need to return to some realization 
of the centrality of the Euro-Atlantic relationship, that it 
has been the real basis of what our post-Cold War security has 
been about.
    Senator Shaheen. Thank you.
    Mr. Hadley. I think we are making progress on that. I did 
not go to Munich, but I have heard from Madeleine and others 
that that was the wrap. We have heard it from Mattis. We need 
to hear it from President Trump. And my recollection is 3 days 
later in his appearance before the joint session of Congress, 
he embraced NATO pretty strongly. And I think that is helpful. 
I think the fact that he is having some additional credibility 
into our foreign policy, that we are going forward to the 
deployments in the Baltic States and the Balkans, all that is 
helping. And the evolution in the attitude of the 
administration towards Russia and a more realistic attitude 
towards Russia--I think all of that helps.
    The NATO thing I think is in the process of being fixed.
    I am more worried about the EU. President Trump recently 
did say something like the EU is fine if that is what the 
Europeans want. But he has put his finger on something. The 
European Project does not have a lot of support in the rank and 
file among the population. It has not been sold. There are real 
reservations about it. And the EU actually needs to renovate 
itself if it is going to save itself. And I think this is 
really a message the Europeans need to hear.
    Senator Shaheen. I appreciate that and I share that 
concern.
    One of the places where I think the EU could be more 
helpful than it currently is is in the Balkans where the long 
lead time--and I appreciate that we need to support those 
countries or encourage them to move to more transparent 
democratic processes. And, Secretary Albright, I would be 
interested in hearing your thoughts about the Balkans. But it 
seems to me that one concern has been it takes so long to get 
through the process of joining the EU, that the public is 
discouraged before you can get very far down that road and they 
start looking elsewhere.
    But, Secretary Albright, can you talk about--my time is up 
I know, Mr. Chairman--just briefly respond on the Balkans?
    Secretary Albright. Let me just say that part of the issue 
generally is that success in kind of fragile democracies takes 
longer than we think. And I am concerned about the fact that 
after the Clinton administration left office, that not enough 
attention was paid to the Balkans, that we thought it was all 
done. It was not all done, and there really are questions. And 
I think there are issues in fact, and it is germane to this 
whole point. Where we are not active, the Russians are being 
very smart in getting in in some form or another. And I think 
that the EU membership activity is something that is useful and 
takes too long. That is what happened in Ukraine.
    And so I think the question is to realize that we are not 
operating in a field where we have all the time that we want, 
is that there is something else going on. And what Putin wants 
is to break up Europe. That is my sense that that is his 
agenda. And we should not be a part of it, and what we should 
try to figure out is how to be supportive and push the process 
forward and not just decide that everything is done everywhere.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Udall?
    Senator Udall. Thank you to the panel very much for your 
testimony today. It has been very engaging and very insightful.
    And I thank the chairman for your statement in response to 
Senator Young about the committee reviewing the 9/11 AUMF. I 
think that is really important to do, and I think many of us 
have been speaking up on that. And I know Senator Young is not 
here, but I look forward to reviewing his AUMF.
    Last week, I asked Secretary Mattis about the lack of an 
AUMF in Syria. As you know, in Syria, the U.S. has not been 
invited in by the government. U.S. military vehicles, heavy 
artillery, and troops are in Syria. And it is easy to argue 
that the United States has effectively invaded Syria, violating 
the sovereignty of a country in the Middle East, which is a de 
facto declaration of war.
    Secretary Mattis, who I have great respect for, answered 
the question that there was really no border between Iraq and 
Syria, and the United States could not, quote, draw that 
imaginary line in the midst of an enemy. But he also supported 
the effort to pass a new AUMF, calling it, quote, a statement 
of the American people's resolve. Unquote.
    I understand Secretary Mattis' response. ISIS does not 
respect international borders. But ISIS is not the only force 
in Syria. The Assad government is still the internationally 
recognized government, and it is being supported heavily by the 
Russians and the Iranians.
    I do not think it is right for the U.S. military to become 
involved in the Syrian Civil War based on the 9/11 AUMF. I 
voted for that AUMF as a House member. I never imagined that 
vote being used to justify U.S. ground troops in Syria in the 
year 2017, and I do not think anyone else who voted in favor it 
did either.
    So my questions to the panel, starting with Secretary 
Albright, is do you think the 9/11 AUMF applies to the 
situation in Syria. What does this mean, this situation we have 
now, in terms of the international rules-based order? And are 
you worried that the conflict could continue to spiral towards 
a wider conflict that will further entrench the United States 
in another Middle Eastern war?
    Secretary Albright. I do think that a new AUMF is necessary 
because one can interpret and reinterpret. But the bottom line 
is we need the American people to understand what our role is 
in whatever country and especially in something that is as 
complicated as what is going on. And there is a problem between 
Iraq and Syria and where the border is, which is exactly the 
reason why there needs to be more discussion of it.
    I also think that we need to understand--the U.S. needs to 
be more involved in the political aspects of this and in fact 
understanding where Syria is going, how many things need to be 
done.
    And by the way, the Atlantic Council put out a terrific 
film in terms of what the Russian role has been in terms of 
breaking Aleppo and in terms of what the Russian role in that 
has been. And Ambassador Haley I think has been terrific in 
describing that.
    So there needs to be a larger discussion about what we are 
doing in Syria, what the future of Syria is, why we need to be 
there, and the AUMF is the only way to do it. So I think that 
having kind of followed the discussions on previous issues, 
there is no question that it is a complex issue in terms of how 
much power you give to the executive branch, what the duration 
of it is, what the various component parts of it is, which is 
exactly the reason why a deliberate discussion, a national one, 
needs to be held.
    Senator Udall. Mr. Hadley?
    Mr. Hadley. I think the current AUMF does apply to what is 
going on in Syria because Al Qaeda is there and ISIS is a 
successor organization to Al Qaeda. So I do not think there is 
any question about the authority of what we are doing.
    Also, states have a responsibility to govern their 
territory and make sure they are not used as a basis for attack 
of their neighbors. And we know there is plotting going on in 
Raqqa today directed against Europe and the United States. So 
we have to defend ourselves against that. So I am not troubled 
by that.
    What I am troubled by is that if we make ultimately an 
accommodation with Assad, we send the message to the world that 
if you are brutal enough with your own people and kill enough 
of them, the international community will let you stay in 
power. And I think it is a terrible message to send to the 
international community.
    Senator Udall. Senator Corker, I would also like to put 
into the record a ``New York Times'' editorial on this called 
Congress's Duty in the War with ISIS. And it specifically 
mentions our colleague, Senator Kaine, who has been pushing a 
long time to urge that we address the issue of an AUMF and 
really constructively look at this issue as a whole, Democrats 
and Republicans, trying to get what I think you all are urging, 
is a bipartisan foreign policy on these kinds of things.
    Thank you, Mr. Chairman.

    [The information referred to is located at the end of this 
hearing transcript]

    The Chairman. Thank you.
    I know I have interjected more than I should, but Mr. 
Hadley just stated he believes that the authority to go against 
ISIS exists. The President Obama felt the same thing. And I 
agree 100 percent that the authority is there. And I think a 
debate on an AUMF, on the other hand, is timely and especially 
with a new administration laying out a strategy.
    I will say that it is a pretty short document, and it still 
does not draw us into the full debate of what we should be 
doing. So for us to think for a moment that writing some 2- or 
3-page document about an AUMF really is the kind of thing that 
I think these two are laying out. It is not. It is not. It 
causes us to talk about a lot of things that are important, but 
it in no way comes close to really focusing on a long-term 
strategy.
    But, again, I appreciate the conversation as it is.
    With that, Senator Murphy.
    Senator Cardin. Mr. Chairman, I would just interject just 
very quickly.
    Along with Senator Udall, I voted for the AUMF when I was 
in the House. I really think Senator Udall is absolutely 
correct. I think any of us who voted for it did not anticipate 
it would be utilized as it is utilized today. The legal 
interpretation of the language is subject to the legal 
scholars, and I understand that. But the AUMF is a 
congressional authorization, and it seems to me that it is the 
responsibility of Congress to give authorization for the 
contemporary needs and that was not done in 2001. I actually 
think we are stronger if we can do it. So I just make that 
point that I think it is the right thing for us to do.
    The Chairman. I think most everybody is in agreement. 
Again, I do not think that this administration nor the Obama 
administration was operating without a legal basis when they 
were going against Al Qaeda and ISIS. But I agree that it is 
very healthy to update.
    I said Murphy, but I meant Markey. Thank you.
    Senator Markey. I always wanted to be named Murphy, but not 
today. Markey is a much more rare Irish name. Thank you.
    Two years ago, Mitchell Orenstein, Professor of Central and 
East European Politics at the University of Pennsylvania, 
observed that President Putin's hatred of NATO is well known 
and that Russia under Putin can never become as democratic as 
necessary to become a full member of the European Union or of 
NATO. And Putin does seem to want to return to 19th century 
global power politics where authoritarian governments rules 
spheres of influence and have a free hand to suppress popular 
aspirations and democratic government and also on the human 
rights issue.
    At his confirmation hearing in January, Secretary of 
Defense Mattis said that Putin is trying to break NATO. 
Likewise, he appears to be trying to break the EU.
    So my question is, since we know what Putin is trying to do 
in Europe and what he tried to do here in the United States--we 
are all politicians up here so we know a get-out-the-vote 
effort when we see it. Is, in your opinion, what Professor 
Orenstein is talking about accurate? Are we in a situation 
where we need to have a proactive policy? And what would be 
your strategy for us to counteract Putin right now? What would 
you have us do, the Europeans do in order to push back? Can you 
give us a 1- or a 2- or a 3-step program that you would like to 
see us actively implement?
    Secretary Albright. Well, first of all, I think we need to 
understand that Central and Eastern Europe was artificially put 
under the Warsaw Pact and the power of the Soviet Union, and 
when the Cold War ended, the big deal was how in fact to let 
them be a part of a system where people could make up their own 
minds about where they lived.
    I am very proud to have been a part of NATO expansion in 
the beginning, and I think that it is not just a military 
alliance but also a political alliance that has great strength.
    I do think--and I have read everything I can about what 
Putin's strategy is and what their military doctrine is. It is 
in fact to break up NATO. They see NATO as the major threat.
    It was very interesting to be at the Warsaw Summit last 
summer and, in fact, that there was a declaration that what we 
needed to do, as far as the Russians or NATO, was to do 
deterrence and dialogue. I have explained it sometimes like 
this. It is a little hard to do both things at the same time. 
But that is part of the issue, is that we need to show the 
deterrence. And therefore, I think the movement of the forces 
that have been undertaken by NATO makes sense. But we also need 
to have a dialogue with the Russians because that was something 
we began to do in terms of a Russia-NATO council and a way to 
make them--not isolate them completely. So one has to say that 
the alliance had not been against them, but that they really 
need to be brought in as part of it.
    I also think that it would be useful--they have been in 
violation of the INF Treaty, and I think it is always worth it 
to call out what is wrong and then try to figure out how to 
have a dialogue on the issues that we can agree with. I do not 
believe in spheres of influence. I think those countries need 
to be able to make up their own minds.
    Senator Markey. Mr. Hadley?
    Mr. Hadley. I would do four things. One, strengthening 
NATO. That means more European spending turning into real 
operational capability, the reposition of forces in the Baltics 
and the Balkans and Central and Eastern Europe to deter Russia, 
and reaffirming our commitment to NATO and NATO members' 
commitment to each other.
    Second, I think we need to support the EU to renovate 
itself and build popular support among its populations so it is 
a vital institution. And then I would hope it would open its 
door to further membership.
    Third, we need to counter--you know, Russia is waging a war 
against Western principles of democracy and freedom and making 
the case for authoritarianism. And we are not even in that game 
anymore.
    And finally, I think we have to help Ukraine succeed, but 
do it in a way that does not commit it to becoming anti-
Russian. That is a delicate balance.
    I think those are the four things we need to be attending 
to.
    Senator Markey. Does Brexit harm the EU in a way which 
strengthens Russia?
    Mr. Hadley. It probably does. But that is not why the 
Brexit vote went the way it did. It went because the concept 
lost the support of British people.
    Senator Markey. But does it support strengthening of EU, 
your point number two? Does Brexit then undermine the EU? I 
understand the reason why it moved that way, but is the effect 
of it a harming of----
    Mr. Hadley. In the short run, it probably undermines the 
EU. The question is, does it provoke the EU to revitalize 
itself and to reengage its populations? If it does, then maybe 
at some point the UK would think to reconsider its decision.
    Senator Markey. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Very good. I hope that is the outcome.
    Senator Murphy?
    Senator Murphy. Thank you very much, Mr. Chairman.
    Mr. Chairman, I worry that sometimes when we are talking 
about this administration's policy on Russia, we selectively 
read comments and actions from the administration to create a 
policy that we want to be true but is not really true yet. Just 
as recently as a few days ago, the President of the United 
States was sending out tweets suggesting that news of Russian 
interference in the U.S. election was fake. And so I want to 
believe that realists in this administration are ultimately 
going to create a more sensible Russia policy. I do not know 
that the President is there yet. He seems to advertise that 
pretty regularly to people who follow him.
    And I read the 40 percent-30 percent recommended cut to the 
State Department in that same vein. That is an absolute gift to 
the Russians. They project their power not just through 
military means but through propaganda and energy bullying, 
through outright graft and intimidation. And you know, it is 
really the State Department programming that is most effective 
in pushing back on that.
    So, Secretary Albright, I wanted to ask you in that context 
a more general question, which is about our expectations for 
what the result of our national security budget should be as we 
approach 2017 and 2018. The President has made it pretty clear 
that he does not believe that the United States' interests can 
be adequately protected with current appropriations levels for 
the Department of Defense, and he has recommended a pretty 
robust increase, an increase that I think will get bipartisan 
support.
    But let me ask you about what our expectations should be 
for the State Department budget. Do you think that we can 
adequately protect the U.S. interests abroad--Russia, as an 
example--with the current appropriations for the State 
Department? I.E., should we be in a debate about a 40 percent 
cut versus flat funding, or should we be suggesting that if the 
Defense Department is going to get plussed up to meet these new 
threats, then we also have to demand that our nonkinetic tools 
get similar attention?
    Secretary Albright. I have to say I always was in a 
difficult position when I saw the size of the defense budget 
versus the size of the foreign policy budget, I mean, 10 times 
as much and kind of the weak partner in this, when in fact the 
kinds of work in terms of diplomacy, our programs where we were 
talking about education, for instance, and exchanges and our 
public diplomacy and our assistance programs. There is no way 
that this can be done by cutting the budget. It is barely 
adequate in the first place. And then the United Nations bills 
and dues come out of that, various support things. And I think 
that we are undercutting our own power by cutting the State 
Department budget.
    I do think it is worth always looking at where savings can 
be made, but the Pentagon might do that also. But I think that 
we are undercutting the power of the United States and the 
security of the American people if in fact we cut the State 
Department budget.
    Senator Murphy. Mr. Hadley, I wanted you to maybe try to 
operationalize one of your key recommendations, which is with 
respect to the proxy wars playing out in the Middle East today. 
You have one recommendation in which you say, listen, the 
Middle East has to sort of take control of their own affairs. 
And yet, with respect to Iran, you do recommend that we 
continue to try to push back against their advancements in the 
region. Those two maybe do not square with each other in part 
because the U.S. has lent unprecedented levels of support to 
the Saudis, military support, over the last 8 years to help 
them win that battle in the region.
    Maybe operationalize this, maybe in the context of Yemen--a 
place where the proxy war is real. It exists today. There are 
right now proposals on the table from the Trump administration 
to lend new serious military support to the coalition, mainly 
to the Saudis. And yet, it does not seem like there is any 
diplomatic component to that strategy. There is a potential 
diplomatic solution, a political solution inside Yemen, but 
today it does not seem as if there is any effort in the 
administration to try to find that. You sort of suggest 
threading the needle, pushing back against Iran while keeping 
the door open to political negotiation and discussion. Is Yemen 
an example in which ultimately a political solution has to be 
found and if you close that door, you are closing yourself off 
to any real potential settlement there?
    Mr. Hadley. Yes. I think it is the difference between what 
we call prong one of our strategy and prong two. In terms of 
winding down the civil wars, the countries in the region cannot 
do it themselves. Outside intervention is required with the 
support of friends and allies in the region.
    Prong two, which is renovation of these societies, the 
countries and the peoples in the region have to take the lead 
on that. We have to support them.
    Yemen. Difficult problem. Of course, we need a diplomatic 
solution. And I think what the Saudi and UAE and the 
administration are talking about is a way to get to a 
diplomatic outcome. People do not understand. I was told just 
yesterday that there were 70 strikes, missile and rocket 
strikes, from Yemen into Saudi and 400 schools have been closed 
in Saudi Arabia because of the threat posed from Yemen. So this 
is a real national security challenge. And what the Saudis and 
UAE wanted to see is an American policy that understands and 
helps them deal with that challenge. And I think the changes 
that are being contemplated are useful in that respect.
    I know you have talked to all of them, and they say to you 
the same thing they say to me. They want to get in a situation 
where there is a political resolution that is acceptable to the 
Yemenis but that does not have the Houthis, which represent 
about 70,000 or 80,000 folks, taking over the whole country. 
And they have not been able to get there. And I think what they 
are trying to design is a strategy to support our friends and 
allies in the region, get some progress on the ground, and to 
set up a situation where there could be a diplomatic outcome. 
That I think is what they are trying to do. I hope they 
succeed.
    The Chairman. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chairman.
    Thanks to the witnesses.
    My chair will be disappointed in me if I do not just weigh 
in on the amen chorus on the AUMF. I do think we are in a 
position--and I agree with the chair that it is a propitious 
time because of the change of the administration, because of 
the development of the anti-ISIS plan that hopefully we will be 
briefed on, but also because of the deepening level of conflict 
in new theaters. We have seen the first ground operations by 
the United States military in Yemen and significantly 
increasing ground operations beyond just special forces in 
Syria.
    And the activity in Syria raises a tough question because 
unlike Iraq or Yemen or Afghanistan, we are not in Syria at the 
request of the government. Russia was invited into Syria by the 
government, and Vladimir Putin had the Duma vote on it before 
he went in.
    And so this is just a time where for many reasons--there 
are many of us who actually feel like the current operations 
are not authorized by domestic law, and the source of our 
belief is comparing the 9/11 authorization that Congress 
rejected--the request that President Bush made was turned down 
and the wording that the administration asked for. And the 
original wording would clearly have covered everything. But 
Congress rejected a broad AUMF and decided to make it narrower. 
So many of us feel like we really are on legal thin ice.
    But be that as it may, the lawyers will differ about this. 
I think the time is right and I look forward to the discussion 
as the change of administration and new strategies are in 
place.
    A lot of good questions have been asked that I was going to 
ask, but you have already covered it.
    Let me just bring you into a new area we have not talked 
about yet.
    I was at two subcommittee hearings yesterday. One was about 
the U.S.-Mexico relationship, and one was about sort of 
strategy vis-a-vis China. And it was interesting.
    The U.S.-Mexico relationship. There was a lot of concern 
that some of the rhetoric from the President might have an 
effect on domestic Mexican politics and possibly increase the 
odds of a Chavez type leader being elected President of Mexico. 
We talked a little bit about that.
    On the China hearing, we talked about China's increasing 
investments in Venezuela and other nations to our south in the 
Americas. And Robert Gallucci, Ambassador Gallucci, was the 
witness from Georgetown, and he basically said yesterday, you 
know, China actually has a much more defined strategy about the 
southern hemisphere, Africa and Latin America, than the United 
States does.
    This is a hearing about big picture thinking, about if we 
are engaged around the big picture definition of strategy, how 
about the Americas? How about Yukon to Patagonia? Where should 
our thinking about these 37 nations of a billion people after 
the Colombian ceasefire, without war for the first time 
probably in recorded human history--how should we be thinking 
about the Americas as we are articulating a strategy so it is 
not just a northern hemisphere or NATO or east-west route that 
our diplomats travel but that we take the responsibilities in 
the southern hemisphere, especially in the Americas, seriously?
    Secretary Albright. Let me just say our policies vis-a-vis 
in the hemisphere have always been complicated. It is a little 
bit damned if you do, damned if you do not in terms of mucking 
around or not paying attention.
    But I do think without making it be a sphere of interest, 
which I think we have to be very careful about, I do think we 
need to have better relationships that are respectful. And you 
mentioned Colombia. Colombia is a perfect example of a 
bipartisan foreign policy that actually took quite a long time 
to effectuate.
    I do think that we need to look at what is necessary in 
those countries, whether it has to do with the problems that 
they have, some created by us and the drug issues that come up, 
but also how to see how the OAS can operate. We talk a lot 
about the role of regional organizations these days. The OAS 
was the original one in all of this. And I think it is 
important to look at where that goes.
    I also do think the other point is the Chinese are willing 
to come in wherever there is a vacuum. We have seen that not 
only in this hemisphere but also in Africa and other places. 
And I think that we have to be very careful about what is going 
on. But I think we have not paid enough attention. I think what 
has helped, frankly, is the change in our relationship with 
Cuba and potentially so that when President Obama went to an 
OAS meeting or the Summit of the Americas, that was not the 
only subject----
    Senator Kaine. Yes. It cleared out an obstacle that was an 
obstacle for a lot of the other nations.
    Secretary Albright. And so I do think that there are 
opportunities, and it has to be viewed but not as us taking 
advantage of Latin America, but having it be genuinely a 
partnership in terms of the issues that take place.
    Senator Kaine. Mr. Hadley?
    Mr. Hadley. I agree with what Madeleine has said.
    You know, we have had a lot of literature now talking about 
a North America strategy, which we did not talk about that way 
10 years ago. I would like to hear us have a western hemisphere 
strategy.
    The Chinese I think appreciate the importance of Latin 
America perhaps at this point more than we do. And I think the 
fact that Chavinistas are sort of in decline in Latin America 
is a real opportunity for us to engage in a hemisphere-wide 
dialogue about where do we want this hemisphere to go in this 
21st century. And I would like to see us start thinking about a 
hemispheric strategy, not just a North American strategy.
    Senator Kaine. Thank you so much.
    Thanks, Mr. Chair.
    The Chairman. Thank you.
    Thank you both for being here. We all admire so much the 
work that you have done and continue to do.
    I noticed Secretary Albright probably took a step back at 
some of my comments about the State Department. I just want to 
say, look, I think we have lost the American people on foreign 
policy in many ways, and I think this last election was in some 
ways about it. I appreciate the comments that have been made 
about us maybe going out into the country discussing these 
things. I think that would be very important. But I think there 
is a huge disconnect between the American people and our 
foreign policy. And I think that is partially our fault, you 
know, a lot of reasons for that. And I think to an extent we 
can do everything we can both at the U.N. and at the State 
Department to make sure that everything we are doing matters 
and that we are not doing wasteful things that do not matter. I 
think that actually builds a case for us to be able to do some 
of the important, transformative things that I see us doing 
around the world.
    So I am all for Secretary Tillerson and what he is doing. I 
really am. I could not be more in support of his efforts to 
look at the organization. He will do that in conjunction with 
us. He will not be behind what happens here budgetarily because 
we always do things way beyond when we are supposed to. So I am 
actually very excited about that and encouraging him on.
    I think Nikki Haley last night was laying out--I know that 
she is planning on significant reforms--significant reforms--
that seem to be being received very well by our partners there 
on the U.N. Security Council.
    So those things excite me because what they do is not 
weaken us. They build strength when people think that what we 
are doing is connected to, number one, making sure we are 
spending our monies wisely, but also towards our national 
interests.
    I do not think we did enough here today to really talk 
about what our core national interests are. And I know that is 
sometimes difficult in a setting when each person has their 
particular issue. But my sense is we really do have--and I 
could wrong, and I know there are still tensions about the 
November 8th election, but I think we have got more opportunity 
than ever--than ever--to come up with a bipartisan strategy on 
the various areas of the world that matter. I really believe 
that.
    And Secretary Gates, who I admire as much I do our two 
witnesses, has continually talked about the Cold War, and I 
think he is exactly right. We had 50 years of common policy. 
And I do not want to diminish our Cold War warriors, but that 
is much easier than where we are today with various issues that 
are happening around the world.
    So this is a wonderful time for our committee, for great 
members like you who have been so engaged in these things, have 
lived overseas, care about these issues deeply. I cannot thank 
you enough for your contributions.
    I understand that you would like to have this report 
entered into the record, and without objection, it will be.

    [The material referred to above can be accessed at the 
following url:]
    https://www.atlanticcouncil.org/wp-content/uploads/2016/11/
MEST_Final_Report_web_1130.pdf

    The Chairman. And if you want to say any closing comments 
that you were not asked about or you want to get something out 
that you would like to vent, you would be more than welcome for 
that right now.
    Secretary Albright. Thank you, because I do not want this 
to seem out of order, but let me just say the following thing. 
I teach at Georgetown in the School of Foreign Service, which 
are people that want to think about having an international 
career. And I am getting questions as to whether they should 
take the Foreign Service exam or be a part of our diplomatic 
service given what is going on. And so I think we need to think 
about what the future of diplomacy is, and part of it has to do 
with the money now. But I also think, just so you know, there 
is kind of a weird feeling.
    The other part that bears specifically--and we have been 
talking about educating the American people in many ways. The 
ban and the immigration policy has made it very complicated for 
universities to welcome students from foreign countries. I can 
tell you that that is what is absolutely basic in terms of 
having an American population that understands what our needs 
are, what our policies are vis-a-vis the rest of the world. So 
we need to think about the next generation in terms of having 
this discussion and how it is affecting what the future of 
America's position is in the world.
    Thank you.
    The Chairman. Well, I would like to respond and Kaine may 
want to also. But, look, as a person who travels pretty 
extensively around the world, I would say to these young 
students, absolutely. We have got a whole generation of people 
who are retiring out of the Foreign Service that have been 
around for many, many years, and I cannot imagine a better time 
to be taking the Foreign Service test and to be coming into the 
service diplomatically. We have more problems today than we 
have ever had, it seems, and they need to be dealt with in this 
manner.
    As it relates to the administration, I think that Senator 
McConnell may have said it best. I do not always quote him. But 
I would not pay attention to what is being said. I would pay 
attention to what is being done. And I think if you look at 
people like Tillerson, Mattis, McMaster coming in, I just have 
a sense that we are going to end up in a pretty decent place as 
it relates to our foreign policy. I cannot speak to some of the 
messages that are going out, but what I can say is I think we 
have some really capable people that are in these positions 
that truly are embracing Congress more so than I have ever seen 
a group come in. And I think if we can move beyond some of the 
shocks that have occurred and some of the statements that are 
made, I think we can truly put in place together, help put in 
place some great policies for our country.
    So I do not know if you want to retort to that.
    Secretary Albright. Thank you very, very much. I think I 
speak for both of us that this was a remarkable opportunity to 
air views, and I hope that in some settings we can continue to 
do that because I believe that it is time for a national 
debate. And I cannot think of a better group of people to do it 
with than all of you.
    The Chairman. Well, thank you. Thank you both.
    There will be some questions that will come in. We would 
like to leave the record open until Monday afternoon. To the 
extent you have time, we would appreciate if you would answer 
those. I know you have staff members who will help you with 
that. But it has been a real pleasure and an honor for us to 
have you and thank you.
    [Whereupon, at 12:23 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


The Committee Received No Response From the Hon. Madeleine K. Albright 
      for the Following Questions Submitted by Senator Todd Young

    Question. In your joint prepared testimony, you write quote ``The 
international system was designed for a different era, and it requires 
a renewal of purpose and a reform of its structures.'' I chair the 
subcommittee that oversees multilateral organizations. Can you provide 
specific examples as to how you believe the structures of the 
international system should be reformed?

    [No Response Received]

    Question. Do you have specific recommendations for reform and 
organizational restructuring at the Department of State and the United 
States Agency for International Development?

    [No Response Received]

    Question. In addition to serving as Secretary of State, you also 
served as Ambassador to the United Nations. You have said that you 
believe reforms are necessary at the U.N. What specific reforms do you 
believe are necessary at the U.N.?

    [No Response Received]
                               __________

The Committee Received No Response From the Hon. Stephen J. Hadley for 
        the Following Questions Submitted by Senator Todd Young

    Question. In your joint prepared testimony, you write quote ``The 
international system was designed for a different era, and it requires 
a renewal of purpose and a reform of its structures.'' I chair the 
subcommittee that oversees multilateral organizations. Can you provide 
specific examples as to how you believe the structures of the 
international system should be reformed?

    [No Response Received]

    Question. Do you have specific recommendations for reform and 
organizational restructuring at the Department of State and the United 
States Agency for International Development?

    [No Response Received]

                               __________

The Committee Received No Response From the Hon. Madeleine K. Albright 
        for the Following Questions Submitted by Cory A. Booker

    Question. Hadley/Albright--West Bank, Entrepreneurship and USAID 
Budget: I was in Ramallah in the West Bank in August and had the 
opportunity to visit a USAID-supported start up incubator, meet 
Palestinian entrepreneurs, and engage in discussion with heads of 
start-ups in the West Bank and Gaza.
    Through this program, the Leaders E-Zone, USAID is working with the 
tech and communications sector in the West Bank and promoting a culture 
that encourages innovation and supports entrepreneurs. These young 
people are models for the next generation of young Palestinians, and 
the most effective counter to the violent ideologies of extremist 
groups that also try to recruit young people. Unfortunately, in the 
budget that President Trump has proposed, programs such as these would 
be cut.

    a. What is the effect of these types of programs?

    b. Will funding the military with $54 billion create the same types 
of outcomes as these USAID programs?

    c. How should we be supporting these outcomes-based programs?

    [No Response Received]

    Question. Hadley/Albright--Civilian Casualties: General Townsend 
said yesterday there was a ``fair chance'' American aircraft were 
involved in the March 17 airstrike that brought down a building in 
Mosul, killing as many as 200 civilians. If the United States is found 
to have brought the building down, and the number of deaths continues 
to climb toward 200, the incident would be the worst civilian casualty 
event since the American invasion of Iraq in 2003. This comes on the 
heels of other airstrikes where civilians have died.
    In the same operation that killed a Navy SEAL in Yemen, local media 
say airstrikes killed women and children. Local activists and 
journalists also say an airstrike killed at least 46 people in a mosque 
in Syria.

   I was heartened that Gen. Votel has opened an investigation into 
        the civilian casualties in Mosul. What do you think should be 
        part of this investigation? What would give human rights groups 
        and others confidence that this investigation is thorough and 
        transparent?

   Do you believe these casualties are connected in some way to a 
        relaxation in the rules of engagement?

   What do you believe is the risk of accruing so many civilian 
        casualties?

    [No Response Received]

    Question. Albright--Youth Bulge: NDI, the organization you Chair, 
has done tremendous work in supporting democracy and broadening civic 
participation, especially among youth. We have talked about the youth 
bulge in many of the countries this committee talks about the most:

   60% of the population across the Arab world is under the age of 30.

   In Yemen, 75% of the population is under age 30.

   In Mali, the median age is 15.9

   In Tunisia youth unemployment among graduates is around 30%. That 
        doesn't include those who have no college education.

    You and NDI have worked extensively in Tunisia in the wake of the 
Arab Spring to bring the youth who galvanized the revolutions that 
swept the Middle East into the political environment. You mentioned to 
me last year that our institutions are not keeping up with the pace at 
which the world moves today--that our tools and our norms have not 
adapted to the current environment.

   What investments should we be making in young people to enable them 
        and their governments to harness their energy and demand for 
        inclusion?

   What risks do we face if we do not?

    [No Response Received]

    Question. Albright/Hadley--Transatlantic Relationship: President 
Trump has called NATO obsolete, was supportive of the Brexit vote 
indicating his indifference to the European Union, and has described 
Chancellor Angela Merkel's policy of welcoming refugees fleeing 
violence in their homes as ``catastrophic.''
    All of these comments have been music to Russia's ears who sees 
NATO as a threat. The German Foreign Minister said Trump's attitudes on 
the transatlantic relationship has ``caused astonishment and 
excitement, not just in Brussels.'' Meanwhile, NATO officials listened 
to Trump's comments ``with concern.''

   What do you think is the status of the transatlantic relationship?

   What do we stand to lose in a breakdown of this economic, trade, 
        and security relationship? Who stands to gain from this 
        breakdown?

   What are some steps that we should be taking to reassure our 
        European allies of our commitment to the transatlantic 
        relationship?

    [No Response Received]

                               __________

The Committee Received No Response From the Hon. Stephen J. Hadley for 
      the Following Questions Submitted by Senator Cory A. Booker

    Question. Hadley/Albright--West Bank, Entrepreneurship and USAID 
Budget: I was in Ramallah in the West Bank in August and had the 
opportunity to visit a USAID-supported start up incubator, meet 
Palestinian entrepreneurs, and engage in discussion with heads of 
start-ups in the West Bank and Gaza.
    Through this program, the Leaders E-Zone, USAID is working with the 
tech and communications sector in the West Bank and promoting a culture 
that encourages innovation and supports entrepreneurs. These young 
people are models for the next generation of young Palestinians, and 
the most effective counter to the violent ideologies of extremist 
groups that also try to recruit young people. Unfortunately, in the 
budget that President Trump has proposed, programs such as these would 
be cut.

    a. What is the effect of these types of programs?

    b. Will funding the military with $54 billion create the same types 
of outcomes as these USAID programs?

    c. How should we be supporting these outcomes-based programs?

    [No Response Received]

    Question. Hadley/Albright--Civilian Casualties: General Townsend 
said yesterday there was a ``fair chance'' American aircraft were 
involved in the March 17 airstrike that brought down a building in 
Mosul, killing as many as 200 civilians. If the United States is found 
to have brought the building down, and the number of deaths continues 
to climb toward 200, the incident would be the worst civilian casualty 
event since the American invasion of Iraq in 2003. This comes on the 
heels of other airstrikes where civilians have died.
    In the same operation that killed a Navy SEAL in Yemen, local media 
say airstrikes killed women and children. Local activists and 
journalists also say an airstrike killed at least 46 people in a mosque 
in Syria.

   I was heartened that Gen. Votel has opened an investigation into 
        the civilian casualties in Mosul. What do you think should be 
        part of this investigation? What would give human rights groups 
        and others confidence that this investigation is thorough and 
        transparent?

   Do you believe these casualties are connected in some way to a 
        relaxation in the rules of engagement?

   What do you believe is the risk of accruing so many civilian 
        casualties?

    [No Response Received]

    Question. Hadley--Press Accountability: I challenged Secretary 
Tillerson during his confirmation hearing about his views on the press. 
It was my assessment that as CEO of ExxonMobil, he was not accountable 
to the American people and only to his shareholders and so did not 
display much interest in engaging with the press. In fact, ExxonMobil's 
policy was to avoid press interactions.
    My concern at the time was that Tillerson would bring that same 
attitude toward the press into this role at the State Department. We've 
seen exactly that concern play out. The Secretary did not take a press 
pool with him on his first Asia trip and after weeks of not holding 
daily press conferences, started them for a few short weeks, and has 
again stopped them. Two weeks ago, several of my colleagues joined me 
in a letter to the Secretary expressing our concern about his evasion 
of the press.

    a. Are you concerned by these stark breaks in precedent?

    b. What message do you think this sends to others around the world 
who are cracking down on independent media, journalists, and civil 
society groups that depend on the U.S. as a beacon for transparency and 
accountability?

    [No Response Received]

    Question. Albright/Hadley--Transatlantic Relationship: President 
Trump has called NATO obsolete, was supportive of the Brexit vote 
indicating his indifference to the European Union, and has described 
Chancellor Angela Merkel's policy of welcoming refugees fleeing 
violence in their homes as ``catastrophic.''
    All of these comments have been music to Russia's ears who sees 
NATO as a threat. The German Foreign Minister said Trump's attitudes on 
the transatlantic relationship has ``caused astonishment and 
excitement, not just in Brussels.'' Meanwhile, NATO officials listened 
to Trump's comments ``with concern.''

   What do you think is the status of the transatlantic relationship?

   What do we stand to lose in a breakdown of this economic, trade, 
        and security relationship? Who stands to gain from this 
        breakdown?

   What are some steps that we should be taking to reassure our 
        European allies of our commitment to the transatlantic 
        relationship?

    [No Response Received]

                  congress's duty in the war with isis
                    [new york times, march 25, 2017]
                    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



                                  [all]
</pre></body></html>
